<html>
<title> - BRIEFING ON THE DEPARTMENT OF DEFENSE INSPECTOR GENERAL'S REPORT ON THE ACTIVITIES OF THE OFFICE OF SPECIAL PLANS PRIOR TO THE WAR IN IRAQ</title>
<body><pre>[Senate Hearing 110-232]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-232
 
BRIEFING ON THE DEPARTMENT OF DEFENSE INSPECTOR GENERAL'S REPORT ON THE 
   ACTIVITIES OF THE OFFICE OF SPECIAL PLANS PRIOR TO THE WAR IN IRAQ 

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 9, 2007

                               __________

         Printed for the use of the Committee on Armed Services

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

35-438 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



  







































                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia,
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SUSAN M. COLLINS, Maine
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
EVAN BAYH, Indiana                   LINDSEY O. GRAHAM, South Carolina
HILLARY RODHAM CLINTON, New York     ELIZABETH DOLE, North Carolina
MARK L. PRYOR, Arkansas              JOHN CORNYN, Texas
JIM WEBB, Virginia                   JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           MEL MARTINEZ, Florida

                   Richard D. DeBobes, Staff Director

             Michael V. Kostiw, Replublican Staff Director

                                  (ii)

  





























                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

Briefing on the Department of Defense Inspector General's Report on the 
   Activities of the Office of Special Plans Prior to the War in Iraq

                            february 9, 2007

                                                                   Page

Gimble, Thomas F., Acting Inspector General, Department of 
  Defense; Accompanied by Commander Tamara Harstad, USN, Office 
  of the Inspector General, Department of Defense................     6

                                 (iii)


BRIEFING ON THE DEPARTMENT OF DEFENSE INSPECTOR GENERAL'S REPORT ON THE 
   ACTIVITIES OF THE OFFICE OF SPECIAL PLANS PRIOR TO THE WAR IN IRAQ

                              ----------                              


                        FRIDAY, FEBRUARY 9, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m. in room 
SR-222, Russell Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Pryor, 
Webb, McCaskill, Warner, Inhofe, Sessions, and Chambliss.
    Committee staff members present: Richard D. DeBobes, staff 
director; Leah C. Brewer, nominations and hearings clerk; and 
John H. Quirk V, security clerk.
    Majority staff members present: Richard W. Fieldhouse, 
professional staff member; Peter K. Levine, general counsel; 
and Michael J. McCord, professional staff member.
    Minority staff members present: William M. Caniano, 
professional staff member; Pablo E. Carrillo, minority 
investigative counsel; Derek J. Maurer, minority counsel; David 
M. Morriss, minority counsel; Lynn F. Rusten, professional 
staff member; Robert M. Soofer, professional staff member; and 
Sean G. Stackley, professional staff member.
    Staff assistant present: David G. Collins.
    Committee members' assistants present: Joseph Axelrad and 
Sharon L. Waxman, assistants to Senator Kennedy; Elizabeth 
King, assistant to Senator Reed; Elizabeth Brinkerhoff, 
assistant to Senator Bayh; Lauren Henry, assistant to Senator 
Pryor; Nichole M. Distefano, assistant to Senator McCaskill; 
and Clyde A. Taylor IV, assistant to Senator Chambliss.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    First let me welcome Tom Gimble, the acting Inspector 
General (IG) of the Department of Defense (DOD). Thank you for 
coming this morning to brief us on a matter which you have been 
looking into for some time.
    More than 2 years ago, in October 2004, I issued a report 
on the alternative analysis of the Iraq-al Qaeda relationship 
which was prepared and disseminated by the Office of the Under 
Secretary of Defense for Policy under the leadership of Douglas 
Feith. My report documented a number of actions taken by Under 
Secretary Feith and his staff to produce an alternative 
intelligence analysis of the alleged relationship between Iraq 
and al Qaeda in order to help make the case to go to war 
against Iraq.
    My report concluded the following back in 2004, ``An 
alternative intelligence assessment process was established in 
the Office of Under Secretary for Policy, Douglas Feith, that 
was predisposed to find a significant relationship between Iraq 
and al Qaeda. His staff then conducted its own review of raw 
intelligence reports, including reporting of dubious quality or 
reliability. Drawing upon both reliable and unreliable 
reporting, they arrived at an `alternative' interpretation of 
the Iraq-al Qaeda relationship that was much stronger than that 
assessed by the Intelligence Community and more in accord with 
the policy views of senior officials in the administration.''
    For example, the Feith office promoted the view that a 
meeting allegedly took place in Prague in April 2001--5 months 
before September 11--between the lead September 11 hijacker, 
Mohammed Atta, and an Iraqi intelligence officer. The Feith 
office took the position that this alleged meeting was `key' 
evidence of Iraqi involvement in the September 11 attacks, 
despite the fact that the Intelligence Community was skeptical 
that the meeting ever happened, and reported its skepticism in 
intelligence reports prepared for the highest officials in our 
Government.
    This morning the DOD IG will deliver both a classified 
report and an unclassified executive summary on the pre-Iraqi 
war activities of the Under Secretary of Defense for Policy. 
The executive summary confirms what I alleged about the Feith 
office 2 years ago. The IG's report this morning states, ``The 
Office of the Under Secretary of Defense for Policy developed, 
produced, and then disseminated alternative intelligence 
assessments on the Iraq and al Qaeda relationship which 
included some conclusions that were inconsistent with the 
consensus of the Intelligence Community to senior 
decisionmakers.''
    The IG also finds that the Office of the Under Secretary of 
Defense for Policy, ``was inappropriately performing 
intelligence activities of developing, producing, and 
disseminating that should be performed by the Intelligence 
Community.''
    In response to some of my specific questions, the IG 
confirms today the following:

          One, ``the Feith office produced its own intelligence 
        analysis of the relationship between Iraq and al Qaeda 
        and presented its analysis to other offices in the 
        executive branch, including the Secretary of Defense 
        and the staffs of the National Security Council and the 
        Office of the Vice President.''
          Two, ``the intelligence analysis produced by the 
        Feith office differed from the Intelligence Community 
        analysis on the relationship between Iraq and al 
        Qaeda.''
          Three, ``the Feith office presented a briefing on the 
        Iraq-al Qaeda relationship to the White House on 
        September 2, 2002, unbeknownst to the Director of 
        Central Intelligence (DCI), containing information that 
        was different from the briefing presented to the DCI, 
        not vetted by the Intelligence Community, and that was 
        not supported by the available intelligence (for 
        example, concerning the alleged Atta meeting) without 
        providing the Intelligence Community notice of the 
        briefing or an opportunity to comment.''
          Four, the briefing drew ``conclusions--or 
        `findings'--that were not supported by the available 
        intelligence, such as the conclusion `intelligence 
        indicates cooperation in all categories, mature 
        symbiotic relationship,' or that there were multiple 
        areas of cooperation and shared interest in and pursuit 
        of weapons of mass destruction (WMD) and some 
        indications of possible Iraqi coordination with al 
        Qaeda specifically related to September 11.''

    The IG finds that these ``inappropriate activities'' of the 
Feith office were authorized by the Secretary of Defense, or 
the Deputy Secretary of Defense.
    These findings of the IG reinforce the conclusion that I 
reached in my report more than 2 years ago, that the Office of 
the Under Secretary of Defense for Policy generated its own 
intelligence analysis, inconsistent with the views of the 
Intelligence Community, in order to support the policy goals of 
the administration.
    Two recently confirmed senior administration officials have 
publicly expressed their concerns about these activities of the 
Feith office. On May 18, 2006, General Michael Hayden, now the 
Director of the Central Intelligence Agency (CIA), testified at 
his nomination hearing that he was not comfortable with the 
Feith office approach to intelligence analysis. Similarly, on 
December 5, 2006, Robert Gates, now Secretary of Defense, 
testified at his nomination hearing that he understands that 
the Feith office was producing its own intelligence analysis 
and, ``I have a problem with that.''
    The IG found it unnecessary to make any recommendations in 
his report because changed relationships between the DOD and 
the Intelligence Community, in his words, ``significantly 
reduced the opportunity for the inappropriate conduct of 
intelligence activities outside of intelligence channels in the 
future.''
    Unfortunately, the damage has already been done. Senior 
administration officials used the twisted intelligence produced 
by the Feith office in making the case for the Iraq war. As I 
concluded in my October 2004 report, ``Misleading or inaccurate 
statements about the Iraq-al Qaeda relationship made by senior 
administration officials were not supported by the Intelligence 
Community analyses, but more closely reflected the Feith policy 
office views.'' These assessments included, among others, 
allegations by the President that Iraq was an ally of al Qaeda, 
assertions by National Security Adviser Rice and others that 
Iraq, ``had provided training in WMD to al Qaeda,'' and 
continued representations by Vice President Cheney that 
Mohammed Atta may have met with an Iraqi intelligence officer 
before the September 11 attacks when the CIA did not believe 
the meeting took place.
    In November 2003, a top secret report of the Feith office 
was leaked to the Weekly Standard. Shortly thereafter, Vice 
President Cheney said publicly that the article in the Weekly 
Standard was the ``best source'' of information about the 
relationship between Iraq and al Qaeda.
    The bottom line is that intelligence relating to the Iraq-
al Qaeda relationship was manipulated by high-ranking officials 
in the DOD to support the administration's decision to invade 
Iraq when the intelligence assessments of the professional 
analysts of the Intelligence Community did not provide the 
desired compelling case. The IG's report is a devastating 
condemnation of inappropriate activities by the DOD policy 
office that helped take this Nation to war.
    I want to thank the IG for his report and completing this 
review, and his independence. I am concerned, however, that 
only a two-page executive summary of the IG's report is 
available in unclassified form, and I plan to work with the IG 
and others to obtain declassification of this report.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, you can read the same report and come up with 
different conclusions, which is quite obvious and will be 
obvious. I think that we of course want to hear from Mr. Gimble 
on the report so we can come to our own conclusions. I do not 
think in any way that his report could be interpreted as a 
devastating condemnation, as you point out, Mr. Chairman.
    I have talked to the chairman of the Senate Select 
Committee on Intelligence (SSCI), Senator Pat Roberts, on 
numerous occasions about this and they have gone over it and 
over it and over it. He has had the SSCI, which is bipartisan, 
the bipartisan WMD Committee by Silverman, and our former 
colleague Chuck Robb separately examine these matters in 
detail. Each concluded unanimously that no intelligence 
analysts were pressured.
    The SSCI also found that there was no basis for any 
allegations that had been made against the Under Secretary. 
Senator Roberts wrote the DOD IG, he was the first one to make 
this request and he did so for this reason. This is his quote 
now: ``The committee is concerned about persistent and to date 
unsubstantiated allegations that there was something unlawful 
or improper about the activities of the Office of Special Plans 
with the Office of the Under Secretary. I have not discovered 
any credible evidence or unlawful or improper activity and yet 
the allegations persist.''
    In an attempt to stop these allegations once and for all, 
he had made the request to the IG's office.
    Now, I would have to say also, Mr. Chairman, that these 
matters have been scrutinized at least three times in the last 
3 years by bipartisan, nonpartisan groups. The SSCI unanimously 
reported that it found that this process, the policymakers' 
probing questions, actually improved the CIA's process. In 
other words, what they were doing in getting into this thing, 
and bringing these issues up, caused the Intelligence Community 
to go back and relook, and to reexamine, and to do a better job 
than they were going to do otherwise.
    Some intelligence analysts even told the committee that 
policymakers' questions had--and I am quoting now--``questions 
had forced them to go back and review the intelligence 
reporting,'' and that during this exercise they came across 
information that they had overlooked in the initial readings. 
In other words, they actually provided a service by bringing 
these things up.
    As I mentioned to you, Mr. Chairman, I will be leaving in 
20 minutes to catch a plane, so I will not be bothering you too 
long here. Thank you very much.
    Chairman Levin. Thank you very much, Senator Inhofe.
    We will make part of the record at this time the SSCI's 
decision that the Feith investigation would be left to phase 
two. They have not completed their investigation or yet 
undertaken their investigation of the Doug Feith operation 
because by its own decision that was left to a future 
investigation called phase two. We will make that decision of 
the SSCI part of the record.
    [The information referred to follows:]
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Chairman Levin. Mr. Gimble.

   STATEMENT OF THOMAS F. GIMBLE, ACTING INSPECTOR GENERAL, 
DEPARTMENT OF DEFENSE; ACCOMPANIED BY COMMANDER TAMARA HARSTAD, 
  USN, OFFICE OF THE INSPECTOR GENERAL, DEPARTMENT OF DEFENSE

    Mr. Gimble. Mr. Chairman, thank you for the opportunity to 
come before you today to brief the results of our review.
    On September 9, 2005, Senator Pat Roberts, chairman of the 
Senate Select Committee on Intelligence, requested that my 
office review whether the Office of Special Plans (OSP) ``at 
any time conducted unauthorized, unlawful, or inappropriate 
intelligence activities.'' Later that month on September 22, 
2005, Mr. Chairman, you requested that my office also review 
the activities of the Office of the Under Secretary of Defense 
for Policy, including the Policy Counterterrorism Evaluation 
Group (PCTEG) and the Policy Support Office, to determine 
whether any of their activities were either inappropriate or 
improper, and if so, provide recommendations for remedial 
action, and also you provided a list of 10 questions.
    Our objective in this review was to determine whether the 
Office of the Under Secretary of Defense for Policy and 
activities of any of the former OSP or PCTEG organizations at 
any time conducted unauthorized, unlawful, or inappropriate 
intelligence activities from the time of 2001 through June 
2003.
    We performed this review from November 2005 through 
November 2006 in accordance with the ``quality Standards for 
Federal Offices of Inspectors General.'' To achieve the 
objective, we interviewed 72 current or former personnel. We 
reviewed unclassified and classified documentation produced and 
available from September 2001 through June 2003. That included 
DOD directives, testimony, guidance, procedures, reports, 
studies, briefings, message traffic, e-mails, firsthand 
accounts, memoranda, and other official data on pre-war 
intelligence and the specific areas of inquiry posed by 
Congress.
    We assessed information from the SSCI and documents also 
from the Under Secretary of Defense for Policy.
    We found that the Office of the Under Secretary of Defense 
for Policy developed, produced, and then disseminated 
alternative intelligence assessments on Iraq and al Qaeda 
relations, which included conclusions that were inconsistent 
with the consensus of the Intelligence Community, and these 
were presented to senior decisionmakers.
    While such actions are not illegal or unauthorized, the 
actions in our opinion were inappropriate, given that all the 
products did not clearly show the variance with the consensus 
of the Intelligence Community and in some cases were shown as 
intelligence products. The condition occurred because the role 
of the Office of the Under Secretary of Defense for Policy was 
expanded from the mission of doing defense policy to analyzing 
and disseminating alternative intelligence. As a result, the 
office did not provide the ``most accurate analysis of 
intelligence'' to the senior decisionmakers.
    I would at this point like to just briefly, in an 
unclassified version, give a response to the 10 questions that 
you proposed to us, the first being: Did the Office of Under 
Secretary Feith produce its own intelligence analysis of the 
relationship between Iraq and al Qaeda and present its analysis 
to other offices in the executive branch, including the Office 
of the Secretary of Defense (OSD), and the staffs of the 
National Security Council and the Office of the Vice President? 
Yes. In our report we discussed that members of Under Secretary 
of Defense for Policy produced a briefing on terrorism based on 
intelligence reports and provided such report to the executive 
branch.
    The second question: Did the intelligence analysis produced 
by Under Secretary Feith's office differ from the Intelligence 
Community analysis on the relationship between Iraq and al 
Qaeda? Yes. The Under Secretary's office analysis included some 
conclusions that differed from those of the Intelligence 
Community.
    The third question was: Was the alternative OSD-Policy 
intelligence analysis supported by underlying intelligence? We 
concluded: Partially. Alternative intelligence analyses that 
the policy office produced were not fully supported by 
underlying intelligence.
    The fourth question: Did Under Secretary Feith send CIA 
Originator Controlled (ORCON) material to the SSCI in October 
2003 without CIA approval to release it, even though such 
approval is required by Executive order? Yes. However, both CIA 
and the Under Secretary of Defense for Policy believed that CIA 
had approved the ORCON material before sending it to the SSCI 
in October 2003.
    The fifth question: Did Secretary Feith mislead Congress 
when he sent several congressional committees in January 2004 
revised ORCON materials that were represented as containing 
CIA's requested changes to the October 2003 document, but did 
not fully and accurately reflect CIA's requested changes? No, 
the Under Secretary did not mislead Congress when he sent the 
revised ORCON material to the congressional committees in 
January 2004.
    The sixth question was: Did the Office of the Under 
Secretary of Defense prepare and present briefing charts 
concerning the relationship between Iraq and al Qaeda that went 
beyond available intelligence by asserting that an alleged 
meeting between lead September 11 hijacker Mohammed Atta and 
the Iraqi intelligence officer in Prague in April 2001 was a 
``known contact?'' Yes, the policy office produced a briefing 
``Assessing the Relationship between Iraq and al Qaeda,'' in 
which one slide discussed the alleged meeting in Prague between 
Mohammed and the Iraqi intelligence officer as a ``known 
contact.''
    The seventh question: Did the staff of the Under Secretary 
present a briefing on the al Qaeda relationship to the White 
House in September 2002 unbeknownst to the DCI, containing 
information that was different from the briefing presented to 
the DCI, not vetted by the Intelligence Community, and that was 
not supported by available intelligence for example, the 
alleged Atta meeting, without providing the Intelligence 
Community notice of the briefing or an opportunity to comment? 
Yes. The Under Secretary presented three different versions of 
the same briefing, of which some of the information was 
supported by available intelligence, to the Secretary of 
Defense, to the DCI, the Deputy National Security Adviser, and 
the Chief of Staff of the Office of the Vice President.
    The eighth question: Did the staff of the Under Secretary 
of Defense for Policy undercut the Intelligence Community in 
its briefing to the White House staff with a slide that said 
there were ``fundamental problems'' with the way the 
Intelligence Community was assessing information concerning the 
relationship between Iraq and al Qaeda and inaccurately 
suggesting that the Intelligence Community was requiring legal 
evidence to support a finding, while not providing the 
Intelligence Community a notice of the briefing or an 
opportunity to comment? Yes, we believe that the slide 
undercuts the Intelligence Community by indicating to the 
recipient of the briefing that there were fundamental problems 
with the way that the Intelligence Community was assessing the 
information.
    The ninth question you proposed was: Did the Office of the 
Under Secretary of Defense for Policy briefing to the White 
House draw conclusions, or ``findings'' that were not supported 
by available intelligence, such as that the ``intelligence 
indicates cooperation in all categories, a mature symbiotic 
relationship,'' or that there were ``multiple areas of 
cooperation,'' shared interests, and pursuit of WMD, and some 
indications of possible Iraqi coordination with al Qaeda 
specifically related to September 11? Yes, the briefing did 
draw conclusions that were not fully supported by available 
intelligence.
    The final question was: Did the Under Secretary of Defense 
for Policy staff prepare and did Under Secretary Feith send to 
the Secretary of Defense and the Deputy Secretary of Defense a 
written critique of a report titled ``Iraq and al Qaeda, 
Interpreting a Murky Relationship'' that was prepared by the 
DCI Counterterrorism Center, stating that the ``CIA's 
interpretation ought to be ignored,'' without providing CIA 
notice or opportunity to respond? Yes. However, there is no 
requirement to provide an internal OSD document to CIA for 
their review.
    That concludes my statement and I would, subject to 
classification, be willing to entertain any questions that I 
could.
    [The prepared statement of Mr. Gimble follows:]
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Chairman Levin. Thank you, Mr. Gimble.
    We will start with 6-minute rounds and we will have more 
than one round, but this is to accommodate a number of members 
who I believe have to leave immediately.
    Mr. Gimble, in my letter of September 2005 I asked you to 
look into whether the alternative intelligence assessments of 
the Feith office differed from the Intelligence Community 
analysis which was provided to the Office of the Vice President 
and to the National Security Council and whether it differed on 
the relationship between Iraq and al Qaeda.
    Your report says that it did differ and I want to ask you 
about a few specifics. Did the Intelligence Community agree 
with the following Feith conclusions: one, that it was known 
that Mohammed Atta, the lead hijacker, and an Iraq intelligence 
agency met in Prague in April 2001?
    Mr. Gimble. There was a difference. The Intelligence 
Community thought that it was not a verifiable meeting and 
subsequently it was proven that it did not occur. But prior to 
that there were questions as to whether it did or did not. It 
was not as presented.
    Chairman Levin. It was not a known contact?
    Mr. Gimble. Right.
    Chairman Levin. Did the Intelligence Community agree with 
the following Feith conclusion: that the relationship between 
Iraq and al Qaeda was a mature, symbiotic relationship?
    Mr. Gimble. It did conclude that.
    Chairman Levin. Sorry?
    Mr. Gimble. It did conclude that.
    Chairman Levin. The Intelligence Community did agree with 
that or did not?
    Mr. Gimble. It did not agree with that.
    Chairman Levin. Did the Intelligence Community agree with 
the following Feith conclusion: that intelligence indicates 
cooperation in all categories between Iraq and al Qaeda? Did 
they agree?
    Mr. Gimble. Did the Intelligence Community agree? No, they 
did not.
    Chairman Levin. Did the Intelligence Community agree that 
Iraq and al Qaeda had a shared interest in pursuit of WMD?
    Mr. Gimble. The answer is no.
    Chairman Levin. The answer is no, you said?
    Mr. Gimble. Correct.
    Chairman Levin. So on four critical issues your report has 
found that the Intelligence Community did not agree with the 
Feith finding in its alternative intelligence assessment 
presented to the highest policymakers in this country, that it 
was known that Atta--the lead hijacker--met with Iraqi 
intelligence agency, that there was a symbiotic relationship 
between Iraq and al Qaeda, that intelligence indicates 
cooperation in all categories between Iraq and al Qaeda, that 
Iraq and al Qaeda had a shared interest in pursuit of WMD.
    I cannot think of a much more devastating commentary on an 
analysis which was presented to the highest levels of this 
government, than what you have found. I will stand by the 
statement that this is devastating, because without the 
knowledge of the Intelligence Community we have an alternative 
intelligence analysis being presented on war or no-war issues, 
whether or not the people who attacked us on September 11 had a 
connection to Saddam Hussein.
    These issues are as critical as any issues I have ever seen 
in the Intelligence Community. These issues and these 
assessments that were provided to the highest level 
policymakers backed a decision to go to war. What is more 
important than that, I cannot think of anything. What is more 
devastating than a commentary that we had this second route of 
intelligence assessments going to the Vice President of the 
United States and the National Security Council? What 
commentary can be more essential to the life of this Nation and 
to our citizens than that? I cannot think of many things.
    Then when you track the statements made by the 
policymakers, which made out a greater connection between al 
Qaeda and Saddam Hussein than was supported by the Intelligence 
Community, and when the American people were told that there 
was a likely meeting between the lead hijacker and Iraqi secret 
service in Prague, when the Intelligence Community did not 
believe that meeting took place, had grave doubts that that 
meeting took place and always did, this is as serious a matter 
I believe as this committee has considered.
    I know the SSCI has before it yet undone a phase two 
investigation of the operations of the Feith office. That phase 
two investigation by the SSCI lies ahead of it. But these 
matters it seems to me are of the utmost seriousness to this 
Nation and we are very, very grateful for your decision to look 
into these and to give us your own independent assessment.
    Now, I said there was to be a 6-minute round. I do not want 
to overdo it because I know Senator Inhofe has to leave. So, 
Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Mr. Gimble, as I understand it the routing that took place 
of the information that Secretary Feith had went from him to 
Wolfowitz and Rumsfeld at DOD, and it went from them to Tenet 
and Jacoby, the DCI and Defense Intelligence Agency (DIA), and 
then it went on to Hadley; is this the routing that you believe 
took place?
    Mr. Gimble. Yes, sir. If you would like some dates I can 
probably provide some of that.
    Senator Inhofe. All right. If this routing, instead of 
going from Feith to DOD and then to DCI, DIA, if it had gone to 
DCI, DIA first, then to DOD, and then to Hadley, would that 
have been more appropriate?
    Mr. Gimble. Let me explain what happened based on the 
documentation that we see. There was a tasking put out in 
January 2002 from the Deputy Secretary to Under Secretary Feith 
to assess the links between al Qaeda and Iraq. Then the next 
point where there was a decision point was in July 25, 2002, 
there was a group of detailees in the policy shop, intelligence 
analysts that were detailed over, that compiled a position 
paper that was later translated into a briefing.
    That briefing was on August 8 presented to the Secretary 
and at that time, he gave direction to give it to DCI Tenet. 
But in the timeframe of August 9 through 14, the Intelligence 
Community players that included DIA, CIA, and a number of other 
Intelligence Community people, looked at that July 25 memo and 
critiqued it and they had significant disagreement. There was 
some agreement, but there was significant disagreement. There 
was like 26 points.
    Essentially, they disagreed with more than 50 percent of it 
and either agreed or partially agreed with the remainder. I can 
get into that in the closed session.
    [Additional information provided for the record follows:]

    Clarification on the July 25, 2002 OUSD(P) ``Iraq and al Qaeda: 
Making the Case'' memorandum.
    On July 25, 2002 a DIA analyst detailed to OUSD(P) wrote a paper 
titled, ``Iraq and al Qaeda: Making the Case,'' in which she outlined 
an intelligence finding that Iraq was supporting al Qaeda's terrorist 
activities. On August 14, 2002, a senior analyst from the DIA's JITF-CT 
addressed every point (there were 26) asserted in the memorandum. We 
found that of the 26 points, DIA disagreed with more than half.

    Senator Inhofe. All right. That is not necessary. I am just 
trying to get----
    Mr. Gimble. Here is the other part of the flow of the 
information. When they had the August 15 briefing with the DCI, 
there was reported in some cases where the DCI agreed with the 
thing and said this is a useful presentation, and he did, in 
fact, do that. He said it was useful. In our interviews with 
him, he later said that he only said that it was useful because 
he did not agree with it and he was just trying to nicely end 
the meeting.
    As a result of that meeting, he called together all the 
analysts, which on August 20, the Intelligence Community and 
the policy group all met together and they debated the 
agreements and disagreements. What happened at that roundtable 
was the CIA did do some changes on their report, some minor 
changes as I understand it. The other part of it was that they 
offered to footnote those disagreements. Our issue in our 
report is, you can have different opinions, but you need, if 
there are differences you should--if you do not vet them, you 
should at least identify them to the decisionmakers.
    Then the next thing was that, after that they chose not to 
footnote, the policy group went and did the final briefing to 
the National Security Deputy Advisor of the National Security 
Council, and they did not make the changes that were talked 
about in that August 20 meeting.
    So that is my view of the flow of information.
    [Additional information provided for the record follows:]

    Clarification on OUSD(P) footnoting Intelligence Community (IC) 
products.
    The August 20, 2002, IC/OUSD(P) meeting was a workshop to discuss a 
common assessment for a CIA report discussing Iraq and terrorism. 
Members from the OUSD(P) staff declined to footnote this product 
because they knew it was inappropriate for OUSD(P) to footnote an IC 
product. The DIA detailee acknowledged that analysts from her parent 
agency were in attendance at this meeting and were the appropriate 
people to discuss and comment on terrorism issues from DIA's point of 
view.

    Senator Inhofe. All right. As I read this material, and I 
have been around long enough to recognize this when I see it, I 
see a lot of turf battle taking place here. On July 9, 2004, 
Senator Rockefeller insinuated that Mr. Feith may have been 
executing intelligence activities which are not lawful. He said 
that they were not lawful.
    Did you have any evidence that Mr. Feith did anything 
illegal?
    Mr. Gimble. We had no evidence that he did anything 
illegal, nor did he do anything that was not authorized.
    Senator Inhofe. That was in your report.
    Real quickly, my feeling in my opening statement as I 
stated is that these things have been scrutinized many, many 
times over the past few years. But the interesting thing that I 
found is that the SSCI unanimously reported that it found that 
the process, the policymakers' probing questions, actually 
improved the CIA's process.
    Now, what they are saying is that there are some things 
that were improved as a result of being forced to go back and 
look as a result of, whether this is improper or proper, the 
activities of Mr. Feith. Do you think that that individual is 
right when he makes that statement?
    Mr. Gimble. I think the statement is right in this respect, 
I think they did go back but they did not necessarily change 
the process. They went back and looked at some of the 
information.
    Senator Inhofe. That they would not have otherwise looked 
at perhaps?
    Mr. Gimble. Probably not. They did make some adjustments, 
and I understand those adjustments were minor, but I have no 
opinion on that.
    Senator Inhofe. It says some analysts even told the 
committee that the policymakers' questions had forced them to 
go back and review the intelligence reporting, and that during 
this exercise they came across information that they had 
overlooked in the initial findings. Is that what you are saying 
also?
    Mr. Gimble. I am saying that they went back--it did cause 
them to go back and look, as I understand, and there were some 
adjustments made.
    Senator Inhofe. Your report says that this was not illegal, 
that in fact it is rather benign, the way it characterized the 
actions of Mr. Feith. Would you say that his actions were--or 
that your report is a devastating condemnation against 
Secretary Feith?
    Mr. Gimble. My report is, what I view it as is a flat, 
fact-based report of the events that occurred. I do not have an 
opinion as to whether it is devastating or not devastating.
    Senator Inhofe. Thank you, Mr. Gimble.
    Thank you very much.
    Chairman Levin. Thank you very much, Senator Inhofe.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman, and thank you, Mr. 
Gimble, for being here, and also for your service, not only in 
the Pentagon but in Vietnam. I think it should be noted you 
were wounded as a soldier in Vietnam. I have a great respect 
for your service.
    I would like to strongly associate myself with the comments 
of the chairman. I think this is an issue that is vitally 
important, not only in retrospect, but also today in terms of 
how it relates to the health of our society and the functioning 
of our government. I was one of those many people outside 
government as this process was going on, but as someone who had 
5 years in the Pentagon and watching these assessments come 
out, I and a number of people were actively skeptical and 
troubled by some of the information that was coming out.
    When you indicate in here that these actions were not 
illegal or unauthorized--and I want to get to the 
``unauthorized'' part in a minute--but that were inappropriate, 
you made the point here this morning--I am going to quote you--
as saying that in some cases they were shown as ``intelligence 
products.'' That seems to be your demarcation on the 
appropriateness of the level.
    I would say that was extremely damaging, not only to the 
process of government but to the public's understanding of the 
stakes in the invasion of Iraq, and that is a misunderstanding 
that persists to this day and affects the debates that are 
going on right now. So, I thoroughly agree with the chairman 
here that this is something that we need to continue to look at 
in terms of accountability and the health of the process.
    I was reading through lists of follow-on questions and 
answers. If the chairman does not mind, these came from the 
chairman, but there are a couple here that I would like to ask 
you a question about. The first is, when we talk about the 
notion of being authorized or unauthorized, your answer here 
was that, in terms of these actions being unauthorized, is that 
you said in your written answer: ``Many of the activities were 
authorized by the Secretary or Deputy Secretary. Therefore the 
activities were not unauthorized.''
    What does that mean for the ones that were not authorized 
by the Secretary or Deputy Secretary?
    Mr. Gimble. The ones that we looked at, we concluded that 
they were authorized. It was a broad, ``go forward and do an 
alternate intelligence assessment,'' even though they did not 
use that term. We thought the Secretary and the Deputy 
Secretary had the authority under DOD Directive 51-11.1, other 
duties as assigned, essentially.
    If you go back to the January 22 memorandum that went from 
Dr. Wolfowitz to Under Secretary Feith, it was interesting to 
us that, if you do analyzing and establishing links, that in 
our opinion is an intelligence activity. It was interesting 
that that was directed to the policy shop and not back through 
either, at the time, Assistant Secretary of Defense for 
Command, Control, Communication, and Intelligence (C\3\I), 
which is the intelligence group, or through the Director of 
Intelligence in DIA. It went down a policy channel. It was 
taken out of the intelligence channels, and it appeared to be 
for us an alternative intelligence assessment.
    We think that was authorized, we think it is legal. The 
issue for us, the reason we said it was inappropriate, was we 
think when you have differing views of unvetted information it 
is the responsibility of the presenter to present both sides of 
it. That's where we come with our determination that this was 
inappropriate.
    Senator Webb. So just so I can understand this, you are 
saying that there were activities that had not been authorized 
by the Secretary or Deputy Secretary, but in your view had been 
authorized by other portions of the----
    Mr. Gimble. No, sir. We think that what they did was 
authorized by the Department.
    Senator Webb. All?
    Mr. Gimble. I am not aware of any offhand. The major 
thrust, it was all authorized. There may be one or two that the 
Secretary did not, or Deputy Secretary----
    Senator Webb. In your answer you say ``many'' rather than 
``all.''
    Mr. Gimble. I really think that is an imprecise answer on 
my part in the written report.
    Senator Webb. Okay. You also at another place here, 
question 4, state that there were a number of documents--being 
loyal to my chairman here--that were denied access, and that 
three of these documents were relevant to the review, but none 
were relevant to the finding. But your finding essentially 
seems to say that the overall problem has been fixed with the 
new sophistication in the process.
    But how were they relevant to the review and not to the 
finding?
    Mr. Gimble. There were 58 documents that were in question. 
We had access to all 58 documents. When we look at the specific 
question that we are dealing with on this particular report, 55 
of them did not deal with these issues. Three of them did deal 
with them, but they were kind of background, related, but at 
the end of the day they did not have any impact on our 
assessment or finding.
    Senator Webb. But would they have an impact, in your view, 
on the public's understanding of how we got into this?
    Mr. Gimble. No, sir, I do not believe they would. Otherwise 
we would have incorporated the results of them into our review.
    Senator Webb. I thank you.
    Chairman Levin. Thank you, Senator Webb.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Let me just say, after listening to everything I have heard 
this morning, I am trying to figure out why we are here. We are 
beating this horse one more time.
    But let me see if I can, Mr. Gimble, get the record 
straight. Did the OSP at the DOD gather any intelligence?
    Mr. Gimble. They had access to intelligence databases and--
--
    Senator Chambliss. Did they gather any intelligence?
    Mr. Gimble. You mean like a source----
    Senator Chambliss. Mr. Gimble, did they gather any 
intelligence? It is a simple question.
    Mr. Gimble. No, they did not go out and do first source 
gathering.
    Senator Chambliss. So they did not gather intelligence. 
They analyzed intelligence that had been gathered by the CIA, 
the DIA, our Intelligence Community; is that correct?
    Mr. Gimble. That is correct.
    Senator Chambliss. All right. Now, there were a lot of 
people doing analysis of that information, is that correct, 
within the CIA, within the DIA, and the other aspects of the 
Intelligence Community?
    Mr. Gimble. Yes, sir.
    Senator Chambliss. Part of the information that was 
obtained by the Intelligence Community was a report with 
respect to contact between Atta and the al Qaeda, is that 
correct?
    Mr. Gimble. Correct.
    Senator Chambliss. Now, where did that come from?
    Mr. Gimble. I need to go back and do that in closed 
session. That would be classified. If we could defer that I 
would be more than happy to answer.
    Chairman Levin. We will have a closed session immediately 
after this.
    Senator Chambliss. I do not believe that is classified. It 
has been pretty public that it came from the Czech service. Is 
that correct?
    Mr. Gimble. That is one place, yes.
    Senator Chambliss. That is one place? So it came from more 
than one place?
    Mr. Gimble. It came from the Czech service. Basically, the 
position of the Intelligence Community is it was not verifiable 
and there was some question about the validity of the source.
    Senator Chambliss. There was a question. There was a 
question in the analysis as to whether it was right or not, is 
that not correct?
    Mr. Gimble. Yes.
    Senator Chambliss. Some people in the Intelligence 
Community thought it was correct, others thought it was 
incorrect?
    Mr. Gimble. The consensus----
    Senator Chambliss. Okay.
    Chairman Levin. Excuse me. What was the answer?
    Mr. Gimble. The consensus of the Intelligence Community 
thought it was not verifiable.
    Senator Chambliss. The Czech service was pretty confident 
about their source, were they not?
    Mr. Gimble. They were.
    Senator Chambliss. Can you tell me when the Czech service 
finally said that they thought their source was not correct?
    Mr. Gimble. 2006.
    Senator Chambliss. January 2006. So some, I do not know, 6 
years after the fact. My point being that the Intelligence 
Community is not exact science. There are differences of 
opinion. In our report that the SSCI made, of which Senator 
Levin was a member of at the same point in time that I was, we 
had what I think is a correct conclusion that Senator Levin and 
I agreed on that the intelligence provided by the Intelligence 
Community to policymakers and decision makers pre the conflict 
in Iraq was flawed, and one of the reasons it was flawed is 
because there were folks at the State Department who had access 
to information that was different from the information that the 
CIA had and the DIA had. Do you recall that?
    Mr. Gimble. Not the State Department----
    Senator Chambliss. Suffice it to say that is correct. It is 
in the report. There was a disagreement within the Intelligence 
Community as to what the reliability of the sources were. I'll 
mention Curveball because everybody has read about Curveball 
now, and that source at the end of the day turned out to be 
unreliable. But at the time the information was taken by the 
CIA they thought he was reliable, but it turns out he was 
unreliable. So again my point is that this is not an exact 
science.
    Now, the IG report that you issued cites as evidence 
Senator Levin's ``Report of an Inquiry into the Alternative 
Analysis of the Issue of Iraq-al Qaeda Relationship.'' That 
report claims that administration officials made statements 
which did not accurately reflect the intelligence assessments 
that were provided by the Intelligence Community.
    Now, the community provided to the SSCI over 40,000 
intelligence assessments on Iraq from the Intelligence 
Community which support the administration's statements. Did 
you examine the full scope of the Intelligence Community 
documents to enable you to conclude that public statements made 
included information which did not come from the Intelligence 
Community?
    Mr. Gimble. What our issue was, and I think we are getting 
a little off point here, is that the briefing was--for example, 
the meeting you are talking about was a briefing that was 
provided without the caveats. In other words, all we are saying 
is, we do not have a conclusion which side is right or which is 
wrong. What we are concluding is if you have disagreements, 
significant disagreements, it is the responsibility of the 
presenter to make those aware, make the people they are 
presenting to aware of those disagreements.
    Senator Chambliss. Which is exactly the point that Senator 
Levin and I made in our report of the intelligence leading up 
to the conflict in Iraq.
    Now, the most famous comment that came out of the issue of 
WMD in Iraq was ``slam-dunk.'' Director Tenet, when asked by 
the President as to whether or not there were WMD in Iraq, he 
said it is a slam-dunk. Do you recall that?
    Mr. Gimble. I saw that on TV, yes.
    Senator Chambliss. Is there anything in your investigation 
that indicates that statement by Director Tenet was made based 
upon information obtained from Mr. Feith?
    Mr. Gimble. We did not look at that, WMD. We looked at the 
relationship between Iraq and al Qaeda.
    Senator Chambliss. At the time that Mr. Feith made his 
investigation and gave a briefing, who did he give the briefing 
to first?
    Mr. Gimble. The first briefing of the series of three was 
to the Secretary and Deputy Secretary. As I was saying earlier, 
the Secretary told them to go brief the DCI, which they did, 
and then----
    Senator Chambliss. Wait a minute. He briefed the Secretary 
of Defense and the Secretary of Defense said: This is 
interesting; go brief George Tenet, the head of the CIA.
    Mr. Gimble. Correct.
    Senator Chambliss. Did he go brief George Tenet?
    Mr. Gimble. He went and briefed--yes, he did.
    Senator Chambliss. Did Director Tenet make any comment 
after the briefing?
    Mr. Gimble. The comment that we had in the subsequent 
interview was that he told them, he dismissed the meeting 
saying, this is useful, and that he immediately got back the 
intelligence group, to include Admiral Jacoby, and put together 
the meeting that came up on August 20, to get the analysts 
together to vet out the differences or disagreements. He 
thought his position and the CIA's position was that they did 
not agree with the Under Secretary's position.
    Senator Chambliss. So once again we had a disagreement in 
the community over issues of interest, is that correct?
    Mr. Gimble. That is correct.
    [Additional information provided for the record follows:]

    OUSD (Policy) is not a member of the Intelligence Community; it is 
a consumer.

    Senator Chambliss. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    The opinion of the Intelligence Community in the fall of 
2002 with respect to the meeting, the alleged meeting, with 
Atta in Prague was that it was not substantiated; is that fair 
to say?
    Mr. Gimble. That is correct.
    Senator Reed. Mr. Feith was aware of that?
    Mr. Gimble. They were aware of that.
    Senator Reed. His conclusion in his briefing was that this 
was known, it was a fact; is that correct?
    Mr. Gimble. That is correct.
    Senator Reed. So that was a significant departure from the 
conclusion of the Intelligence Community, deliberately made by 
Secretary Feith?
    Mr. Gimble. It was a difference between the consensus 
opinion of the Intelligence Community.
    Senator Reed. Now, in the series of briefings that Mr. 
Faith gave, did he provide identical information at every 
briefing?
    Mr. Gimble. There were some variations of the briefing.
    Senator Reed. What are the most significant variations?
    Mr. Gimble. Let me get that, capture this correctly.
    Senator Reed. Can you please bring the microphone up?
    Mr. Gimble. Let me get this. I need to make sure what is 
not classified. [Pause.]
    Senator, this is marked ``SECRET.'' I understand the----
    Senator Reed. I do not want to go into SECRET matters here 
because that is inappropriate. But in a general sense, he 
changed the briefing for his audience; is that correct?
    Mr. Gimble. Yes, he did.
    Chairman Levin. Sorry?
    Senator Reed. He changed the briefing for his audience?
    Mr. Gimble. There were adjustments made depending on the 
audience.
    Senator Reed. Why would he do that? Why would he change 
significant--without going into details, this is not just 
paragraph and grammatical changes. Why would he make changes 
based on the audience?
    Mr. Gimble. I do not think I am in a position to make a 
comment on why he would do what he did.
    Senator Reed. Did you interview Mr. Feith under oath?
    Mr. Gimble. We interviewed Mr. Feith. It was not under 
oath.
    Senator Reed. Why would you not interview him under oath?
    Mr. Gimble. Because this was a review, not an 
investigation. We typically do not, unless we are doing either 
an administrative or criminal investigations, we typically do 
not swear people in.
    Senator Reed. So, Mr. Feith has never under oath responded 
to any of these questions. You specifically have not asked him 
why he would change briefings for different audiences; is that 
correct?
    Mr. Gimble. Not under oath.
    Senator Reed. Not under oath. Did you ask him in terms of 
an interview, why he changed his briefing?
    Mr. Gimble. One of the changes was they took a slide out of 
the briefing to the DCI, to Mr. Tenet, because it was critical 
of the intelligence process, and according to Secretary Feith, 
that is the reason they took it out.
    Senator Reed. Now, some of my colleagues have been talking 
about improving the process. How do you improve the process 
when you have a chance to talk to the DCI and you specifically 
do not criticize what he is doing?
    Mr. Gimble. Again, I think the process is pretty good. 
There is a vetting. There is a process in place by regulation, 
when you have differences of opinion you stand the analysts--
stand those interpretations of their positions up and they 
either stand or fall on their own merit. If you still have 
significant disagreements at the end of that, it is that 
responsibility, I think, to identify those and document them. 
That is actually what was not done in this case.
    Senator Reed. I understand, and you might have more 
specificity, that Mr. Feith briefed the White House in 2002, 
but Director Tenet was not aware of that briefing until 
approximately 2 years later; is that correct?
    Mr. Gimble. That is my understanding.
    Senator Reed. That is your understanding. So, when Mr. 
Feith briefs the DCI, my presumption--and your advice would be 
appreciated--is that they would consider this as an ongoing 
process of trying to reconcile different viewpoints on 
intelligence. But unbeknownst to the DCI, a briefing which he 
might agree with or disagree with has already been given to the 
White House in a manner that suggests it is authoritative and 
accurate. Is that a fair assessment?
    Mr. Gimble. Let me clarify a couple of points in this. 
First of all, the briefing that was done at the National 
Security Council that was attended by the chief of staff of the 
Vice President; Secretary Feith was not present at that 
briefing. It was staff that gave that briefing. From looking at 
the charts, it appears that it was briefed, and I do not know 
the discussion that went on, but it was briefed and it was 
authoritative, in my view, as ``these are the facts.''
    Senator Reed. Your subsequent conclusion suggested that 
some of those facts were in serious doubt at that time?
    Mr. Gimble. The Intelligence Community had some serious 
issues with some of the facts.
    Again, I need to just remind everyone, we did not make an 
assessment on the validity of either side of this issue. We are 
just merely saying that there was a discrepancy out there and 
we do not think it was reconciled and presented, both sides of 
it, as the briefings went on.
    Senator Reed. I must say I am very troubled about this. I 
think everyone around here understands that intelligence is 
sometimes an art, not a science. But when you change the 
picture for your audience, it is deeply suspicious of your 
motives and your intentions.
    Thank you.
    Chairman Levin. Thank you, Senator Reed.
    Senator Sessions.
    Senator Sessions. I am not a part of the Intelligence 
Community and have not tried to master this brouhaha that has 
been going on, blame somebody about all our intelligence 
issues, and have not tried to fully master it. I know my 
feeling about the Iraq war was based on my belief that Iraq was 
violating the resolutions of the United Nations, the agreements 
they made after the first Iraq war, and that they were 
breaching the embargo. We were flying aircraft over them and 
dropping bombs on them, they were shooting missiles at us, on a 
weekly, almost daily basis. We either had to get that brought 
to a conclusion or not. I think my remarks at the time indicate 
that that was my primary concern, and I think it was the main 
concern of our foreign policy.
    But these were matters of importance. So I ask, Mr. Gimble, 
is it not true that some staffers in Mr. Feith's shop found 
some information in the intelligence gathered by our 
intelligence-gathering agencies that indicated on the surface 
that there was a connection between Iraq and al Qaeda?
    Mr. Gimble. They did find information that they concluded 
that there was.
    Senator Sessions. This had not been even referred to in 
some of the intelligence--in the Intelligence Community 
assessments of Iraq and al Qaeda, is that not right? Even to 
dismiss it?
    Mr. Gimble. There was a lot of information out there. 
Specifically, if you have a specific point we can go look.
    Senator Sessions. This is the point. I am just trying to 
put myself in Mr. Feith's shop. His staffers come to him and 
say: ``We found some references to connections between Iraq and 
al Qaeda that is not in the CIA report.'' Is that not basically 
what they briefed the Secretary of Defense about, and pointed 
out some other things that had not been brought forth in the 
Intelligence Community summary of the facts?
    If I am mistaken, correct me.
    Mr. Gimble. I think what happened there is that they have 
information. There are a lot of reports out there. As someone 
said earlier, there is something like 40,000 pages that you on 
the SSCI reviewed. I do not know what is in each of those 
40,000 pages, but what our position is, what my report says, is 
that there was a known disagreement between the Intelligence 
Community and the policy shop----
    Senator Sessions. No, no. If you cannot answer this 
question, just tell me. But my impression is that they found 
things that showed a connection that was not referred to in the 
Intelligence Community summary and that they felt at least 
should have been referred to, and they shared that with the 
Secretary of Defense, and the Secretary of Defense said: ``Why 
do you not go over and talk to the CIA and talk to them about 
it, and find out what the facts are.'' Is that not basically 
what happened in those two steps?
    Mr. Gimble. They did. They went over----
    Senator Sessions. All right.
    Mr. Gimble.--and the intelligence agencies disagreed with 
them.
    Senator Sessions. All right. Then they went and gave a 
briefing to the National Security Director, Assistant Director, 
Mr. Hadley, and Mr. Libby, right?
    Mr. Gimble. They did.
    Senator Sessions. They showed some of the things they had 
found that had not been referred to in these reports?
    Mr. Gimble. They showed some conclusions that disagreed 
with----
    Senator Sessions. Now, you--go ahead. Excuse me. I do not 
want to interrupt you. I think that is important, what you are 
saying right here.
    Mr. Gimble. I think the information was all out there. It 
is just how you interpret it. Intelligence is not an art and I 
think that was said earlier. So it is not an art, but the 
process of evaluating it should be a pretty good science. You 
need to have a rigid process to go through. When you have 
disagreements between legitimate people--and these were 
legitimate people, they are hard-working people--you have 
disagreements between them, the vetting should occur. If there 
still cannot be agreement on it, it is the responsible thing to 
let the decisionmakers know both sides of the equation. That is 
all we are saying.
    Senator Sessions. I would assume that is what Mr. Feith's 
staff did when they briefed the National Security Council.
    Mr. Gimble. They did not show the other, dissenting side. 
That is the issue that we have.
    Senator Sessions. Mr. Gimble, the National Security Council 
had already been given the Intelligence Community's consensus 
opinion, had they not?
    Mr. Gimble. We did not look at that. I am sure that----
    Senator Sessions. I am sure they had.
    Mr. Gimble. But the point is, if you are making a point you 
probably need to say, what we conclude is different from the 
people that are engaged to do intelligence collection and 
analysis. All we are saying is give the full picture of it.
    Senator Sessions. I am just trying to follow this through. 
I just want to get to the bottom of it. So they go there to the 
National Security Assistants, Mr. Hadley and Mr. Libby, and 
they present their little presentation that Director Tenet had 
already said was useful, right?
    Mr. Gimble. He later said the reason he said it was useful 
is because he just wanted to courteously dismiss the thing, and 
later said to us that he disagreed with it.
    Senator Sessions. But in the mind----
    Chairman Levin. I am sorry. I did not hear the end of his 
answer. You said it was useful and then--what was the end of 
the answer?
    Mr. Gimble. He said the term ``useful'' for the briefing, 
he said it was ``useful.'' This was our interview with Mr. 
Tenet, that it was a courteous way of ending the meeting; he 
did not agree with the position, nor did CIA, is what he told 
us. He immediately kept Admiral Jacoby back in there and he 
told him to get this back into analytical channels and get the 
analysts talking.
    Immediately after that, they called a meeting at which they 
had the intelligence analysts and Secretary Feith's policy 
analysts, and they had a meeting to discuss the differences. 
They did that. The CIA made some changes that were categorized 
to us as somewhat minor. They made the changes in the report, 
and they offered to footnote the remaining differences of 
opinion that the policy folks had. The policy folks said they 
did not think that was appropriate for them, because they were 
policymakers, not intelligencemakers.
    Then when they did not do that, approximately 3 weeks later 
the policy group went up and briefed their story and did not 
put in the discussion about what happened at that forum on 
August 20, to put the other side of the story to get a balanced 
picture.
    I go back. The only thing we have said in our report is 
this, is that it is legitimate to have disagreements, there is 
a vetting process in the Intelligence Community to work those 
disagreements, and you may still have disagreements at the end 
of the day; but it is probably responsible--in my own personal 
opinion, it is responsible for someone, if you have differences 
of opinion, that you show both sides of it where the 
decisionmakers know that that disagreement is out there and 
they can do their own assessment.
    Senator Sessions. I would just take a minute, Mr. Chairman. 
I would like to complete this line of thought.
    So after they shared this with Mr. Tenet, they went over 
and shared the same findings that they had with the National 
Security Assistant, Mr. Hadley, now the National Security 
Advisor, and shared that. You say they presented an 
authoritative statement that these are the facts, I believe is 
what you said just a few moments ago. Is that the way you 
understood they presented it?
    Mr. Gimble. That is the way I understood they presented it.
    Senator Sessions. Did you talk to Mr. Hadley?
    Mr. Gimble. He was interviewed as part of our process.
    Senator Sessions. What about Mr. Libby?
    Mr. Gimble. I stand corrected: He was not interviewed.
    Senator Sessions. Mr. Hadley was not interviewed?
    Mr. Gimble. Mr. Hadley was not interviewed.
    Senator Sessions. So are you aware what was on the slides 
there that he presented to Mr. Hadley? This is what I see, I 
have been told, and I do not know--this is what I am told: He 
had on a slide when he made the presentation, ``Fundamental 
problems with how Intelligence Community is assessing 
information.''
    Mr. Gimble. I believe that is correct.
    Senator Sessions. So it seems to me that the essence of it 
is that he was raising with the National Security Advisor that 
their staff--and only the staffers went over, not even Mr. 
Feith--that they had found information they thought was 
important relating to the al Qaeda-Iraq connection, that had 
not been put in the Intelligence Community summary. Is that not 
correct?
    Mr. Gimble. The correct version in my view is that there 
was a meeting to reconcile differences on August 20th before 
that meeting occurred. There were some changes on the 
intelligence side. It is my understanding that those briefing 
charts went over. There were a couple of additions that were 
not provided to Mr. Tenet and they were presented.
    There were 26 points in the underlying buildup to the----
    Senator Sessions. My time is up. I would just----
    Chairman Levin. He can complete his answer.
    Senator Sessions. All right. All right, go ahead.
    Mr. Gimble. There were 26 underlying points that were in 
the underlying premise of the briefing, and there was over half 
of them that the Intelligence Community, the consensus of the 
Intelligence Community did not agree with. That does not, in my 
view, reflect in the charts that were presented.
    Senator Sessions. But the Intelligence Community, after 
having been confronted with information that had not been 
previously included in their report, went back at Mr. Tenet's 
direction and made some changes that were positive and more 
accurate, did they not?
    Mr. Gimble. I think there was probably some positive 
changes made.
    Senator Sessions. My only conclusion is that these guys 
found some things they were concerned about, they shared it 
with the Secretary of Defense, they shared it with the CIA, 
they shared it with the National Security Advisor, and I do not 
think there was any confusion that they were trying to present 
themselves as authoritative intelligence officers based on this 
slide that they were using, which indicated they were just 
providing a critique about total reliance on those assessments.
    As the Senator said, sometimes there is a little turf 
battle going on there perhaps. Finally, we know that the CIA is 
not always perfect because we did not find the WMD.
    Chairman Levin. Thank you, Senator Sessions.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    Mr. Gimble, to someone on this committee it may be beating 
a dead horse, but I am new and I have been out there watching 
this from afar over the last couple of years, and I am very 
interested in an important part of your report and that is the 
responses on the part of DOD. Whenever you do either a review 
as an auditor, or an audit, one of the most instructive things 
that you can learn, having done hundreds and hundreds of these 
things, is how the agency responds to your report.
    It is interesting to me that their first response is what 
is very common when you get a report that is uncomfortable for 
you if you are being looked at, is that you ought not enter 
opinions. I have looked at your report and there is no opinion 
in your report. It is a factual recitation of what did and did 
not occur, regardless of who was right or wrong on either side.
    The other thing that is really interesting in their 
response is they are quick to say that they have nothing to do 
with intelligence activities. In fact, in their response they 
actually say by definition they have nothing to do with 
intelligence activities. As has been pointed out, accurately, 
by Senator Chambliss, this group did not gather intelligence, 
and this group in fact was supposed to be directing policy, and 
as part of their policy they were trying to learn about 
intelligence.
    It would seem to me that the better people to know about 
what is right and wrong about intelligence is in fact the 
Intelligence Community that has gathered the intelligence. Does 
that not seem pretty basic?
    Mr. Gimble. Yes, ma'am.
    Senator McCaskill. So if I understand the time line here, 
this information is given to the head of the CIA, he then calls 
the Intelligence Community together, the gatherers of 
intelligence information, the people in our government that are 
responsible for intelligence. They have a meeting and say: 50 
percent of what you are going to say we believe is wrong.
    Mr. Gimble. That is correct.
    [Additional information provided for the record follows:]

    The Intelligence Community did not agree with 50 percent of the 
information forming the basis of the presentation.

    Senator McCaskill. At that point in time, when the 
intelligence gatherers and the Intelligence Community tell what 
is admitted in this response, the policy people, 50 percent of 
what you are saying is wrong, they then did not share that with 
the National Security Council; is that what your report says?
    Mr. Gimble. It does say that in this respect, is that the 
counterbalance of the full picture, they did not identify that. 
So they just presented what they had and they did not recognize 
that there was significant disagreement with the consensus 
within the Intelligence Community on most of the 26 points that 
they raised.
    Senator McCaskill. They were, in fact, reporting to the 
National Security Council about intelligence matters, correct?
    Mr. Gimble. I would characterize it as an alternative 
intelligence product. They characterize it as a critique of 
intelligence. It seems to me like there was a statement of: 
these are the issues we have and this is the connection, the 
analysis of the links, which run counter in many respects to 
the consensus in the Intelligence Community.
    I do not think that is altogether bad. I think that can be 
useful. However, I think the problem that we had with it, as we 
say in the report, if you do that you need to present both 
sides of the issue to give a balanced presentation.
    Senator McCaskill. Particularly if both sides are going to, 
in fact, include disagreements from the intelligence gatherers; 
is that a fair statement?
    Mr. Gimble. I think that when you do a presentation on 
intelligence, you should give the full picture. If there are 
agreements and disagreements, you should identify them.
    Senator McCaskill. Lay them out.
    Mr. Gimble. Just lay them out on the table.
    Senator McCaskill. As we move forward, because clearly in 
some respects there are mistakes that have been made, but the 
purpose of these hearings obviously is to try to make sure we 
do not make them again. Is there anything in the response from 
the policy folks at DOD that this report involves, is there 
anything in their response that would indicate to you as the IG 
that they acknowledge that this was not done correctly, that 
they acknowledge that in the future whenever there are 
differing opinions about an intelligence assessment when it 
relates to whether or not we go to war, that in the future they 
should always include both sides of the issue when it is given 
to the ultimate policymakers in terms of a recommendation of us 
going to war or not going to war?
    Mr. Gimble. I think the proper way to look at that is there 
are policies and procedures in place in the Intelligence 
Community where you can identify and have disagreements, 
because it is a perfectly good thing to have disagreements and 
vet those out. The policies and procedures have been there for 
a number of years, that you vet those and then you move forward 
to get the best possible intelligence.
    As the Senator pointed out, this is not----
    Senator McCaskill. It is not a science.
    Mr. Gimble. It is not a science; it is an art. So you get 
the best possible position. In my opinion, I think the 
processes are in place. These guys have to sign a tasking and 
they did it and they did it in my view as best they could. We 
do not argue with the fact they did it nor how they did it. 
What we are only pointing out is this, is that they come to a 
hugely different conclusion than what the consensus of the 
Intelligence Community was. That should have been, as you move 
that forward, expressly explained. Even though the people may 
have had information and should have had, we do not know that. 
The point is is that when you have something of this importance 
we think it is responsible to have both sides of the picture 
out there when there are disagreements if they cannot be vetted 
and come to a common agreement.
    Senator McCaskill. My question to you, Mr. Gimble, is there 
anything in their responses that would indicate to you that 
they understand that that is an important part of this process 
that was not followed here and that should be followed in the 
future?
    Mr. Gimble. No. They view that I have the wrong 
interpretation of what constitutes intelligence products. We 
just have a disagreement on that. I think the system will take, 
if properly followed--and I think it is being properly followed 
now--you would not have that.
    Senator McCaskill. Do you believe that this would not 
happen now?
    Mr. Gimble. I do not think it would, but this is a single 
incident in a universe of many, many decisions and intelligence 
reports and so forth that go forward. I do not have a crystal 
ball and I cannot tell you that everything is perfect. I think 
there is a system in place that will allow us to get the best 
intelligence information if it is followed in each and every 
case.
    Senator McCaskill. I would be a lot more comfortable if 
their responses reflected that.
    Thank you, Mr. Gimble.
    Chairman Levin. Just to be clear, when you say the system 
is in place you mean now in place?
    Mr. Gimble. It is in place. There has always been a vetting 
procedure. If you have it in the intelligence channels, the 
executive orders call it out. The DOD directives call it out. 
There is a process that you vet and can have legitimate 
discussion and disagreement. Also there is a legitimate way to 
bring that forward and say, okay, here is our best estimate, 
and it is based on if you have a disagreement, you lay those 
out. I think there is a process in place to do that, yes, sir.
    Chairman Levin. Was that process then not followed?
    Mr. Gimble. The part that we thought was inappropriate, we 
thought it was not followed because we thought there should 
have been a full reporting of both sides of the issue. Again, 
it goes back to we did not think there was anything illegal or 
unauthorized. We can clearly see that it was authorized by 
people in authority to authorize it and so we do not have an 
issue with that.
    Chairman Levin. Thank you.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    Your work product is of no greater value than the 
thoroughness with which you perform the buildup to reach your 
conclusions, and I want to direct my questions to the process 
by which you reached your conclusions. You have indicated you 
did brief, debrief, Tenet and you did debrief Feith. Did you 
determine from those debriefings that there were a level of 
individuals beneath those two principals who may have had a 
diversity of opinion and that they then failed to disclose that 
diversity in such presentations that Feith made? Is that 
correct?
    Mr. Gimble. There was a group of individuals under both. I 
believe that Secretary Feith knew what the position was. I 
think he knew both sides of the argument. I think the DCI, Mr. 
Tenet, knew both sides of it.
    Senator Warner. But we are focusing on Feith, though.
    Mr. Gimble. Okay.
    Senator Warner. It was his failure to disclose evidence 
that you believe you now have that there was an honest 
difference of opinion on several or more significant issues 
leading to the conclusions that Feith presented; is that 
correct?
    Mr. Gimble. That is correct.
    Senator Warner. Now, I am struck that you did not interview 
or debrief Hadley. First you said you did, which I assume is 
such an integral, important part of your presentation this 
morning that you did it. Then you had to reverse that. I find 
that somewhat troubling because Hadley is a very significant 
and pivotal role player in this.
    Can you explain how you made that mistake this morning?
    Mr. Gimble. Sir, I would not categorize that as a mistake--
--
    Senator Warner. I beg your pardon. You have to speak a 
little more slowly and directly for me. Thank you.
    Mr. Gimble. Senator, we requested an interview with Mr. 
Hadley. The lawyers at the National Security Council did not 
let us interview him. So we requested, and were unable to. 
Frankly, he is not a member of our Department, so we do not 
have any authority to interview.
    [Additional information provided for the record follows:]

    As a non-DOD organization, the NSC does not fall under our 
jurisdiction. We did not request an interview with Stephen 
Hadley during our review. We contacted Dr. Michele Malvesti, 
the Senior Director for Combating Terrorism, in hopes of 
interviewing her to obtain details on the NSC level 
decisionmaking processes. On June 7, 2006, we faxed a letter to 
NSC/OGC (Him Das) referencing the details of the review and our 
request to interview Dr. Malvesti. On June 23, 2006, Mr. Das 
informed us that after reviewing the information we sent, Dr. 
Malvesti said that she wouldn't have any pertinent information 
to add to our review. Mr. Das was also under the impression 
that our review was somehow related to GAO's review and 
declined based on the fact that NSC does not fall under GAO 
jurisdiction. We attempted to contact Mr. Das's supervisor, 
Brad Wiegman, however, we received no return call. On June 29, 
2006, we spoke with Mr. Das again and were told that he did not 
think that Dr. Malvesti would participate in an interview with 
our office. No further action was taken after this phone call. 
Based on this incident with the NSC, we did not request an 
interview with Mr. Hadley.

    Senator Warner. I understand that, but the simple fact is 
you made a request. For whatever reason, on counsel's advice he 
declined. But this morning you said you did.
    Mr. Gimble. That was my mistake.
    Senator Warner. A rather serious mistake about a very 
pivotal member of this administration. Anyway, you will accept 
that. You admit the mistake.
    Now, my understanding is that Feith had pulled together in 
the DOD a cadre of presumably career civilians and military 
officers, some of whom were detailed to his staff from DIA; is 
that correct?
    Mr. Gimble. That is correct.
    Senator Warner. Now, having had some significant experience 
for many years as Navy Secretary, I know how these things work 
in that Department. I have a high degree of confidence in the 
professionalism of those level of workers, be they military or 
civilian. Did you interview a wide cross-section of Feith's 
staff? I know in the report you gave a figure here.
    Do you have any personal knowledge yourself of the degree 
or do you--shall we have this staff member testify?
    Mr. Gimble. I am just getting a list of the people that we 
interviewed. [Pause.]
    Senator Warner. Can I be allowed a little additional time, 
given that it is taking the witness a period to get his 
testimony?
    Chairman Levin. We will surely add that time. If it takes 
more than another minute, I will add 2 minutes.
    Mr. Gimble. We did interview the members of Mr. Feith's 
staff.
    Senator Warner. How many were there?
    Mr. Gimble. There was----
    Senator Warner. Perhaps, Mr. Chairman, we need to bring to 
the dais those persons that have this knowledge so that we can 
directly cross-examine them. Obviously the witness is not in 
possession of the facts that I----
    Mr. Gimble. We have 72 names that I am trying to get to, 
Senator, and they are not all in the employ of Mr. Feith.
    Chairman Levin. We will be happy to interview the people 
that have not been interviewed if you will give us the list. We 
have the list of the people who have been interviewed, so that 
we can check it out, and if there is any that have not been 
interviewed we will interview them. We are going to be 
interviewing a lot of folks, including, I hope, by the way, 
people who have refused to talk to you, because I think we will 
indeed want to talk to Mr. Hadley. We will indeed want to talk 
to the chief of staff of the Vice President. We will indeed 
want to talk to people who you have not been allowed to 
interview, or who you failed to interview. So those interviews 
will take place.
    Senator Warner, we agree with you that if those names are 
submitted to us, we will check them out; and if there are any 
there that are missing, we will add those to the list.
    Senator Warner. Mr. Chairman, the point I am trying to make 
is that these are serious allegations and I want to have a 
better understanding, and I think this committee does, of the 
process and the thoroughness with which the investigation was 
conducted to reach these important conclusions.
    Now, again, in the interviews of those staff members, did 
any of them indicate that they gave their work or performed it 
under pressure contrary to the exercise of their own free will?
    Mr. Gimble. They did not, Senator.
    Senator Warner. They did not what?
    Mr. Gimble. Were not pressured to perform or come to any 
preconceived conclusion, and that comes across the consensus of 
the interviews that I have looked at.
    Senator Warner. They were able to give their best 
professional advice to Secretary Feith and his principal 
assistant; is that correct?
    Mr. Gimble. That is correct.
    Senator Warner. Now, you have allegations to the effect 
that when presentations were made, either by Feith or his 
senior staff, that you find fault in that they did not provide 
the opinions which were somewhat contradictory or at variance 
to the principal points they were stressing; is that correct?
    Mr. Gimble. That is correct.
    Senator Warner. Now, at that point in time did any of these 
subordinate staff members, whom I accept for the moment as 
being people of integrity, try to bring to anyone's attention 
that they felt that their work product was being inaccurately 
portrayed to principals, by their principals to others?
    Mr. Gimble. We did not see evidence of that.
    Senator Warner. Did you inquire, because I have to believe, 
given the number of presentations that were made by either 
Feith or his staff, that sooner or later the subordinates were 
of the opinion that the whole story was not being told. Did you 
make that inquiry?
    Mr. Gimble. We made the inquiry to see--we believe that all 
the staff that was assigned to Mr. Feith did in good conscience 
do what they thought was right, and they had a position and 
they probably disagreed with the counterposition. All we are 
pointing out is there are two groups of people that are 
professional and well-intentioned and hard-working servants of 
the government and they had differing conclusions.
    The process for intelligence, though, is you should marry 
those differences up and reconcile them and vet them, and that 
is what we think did not occur here.
    Senator Warner. I cannot believe that these persons, a 
number of them--there is what, 30 or 40 of them?
    Mr. Gimble. We interviewed 72.
    Senator Warner. 72. That someone within that group or some 
individuals would not say----
    Mr. Gimble. 72 is----
    Senator Warner. Beg your pardon?
    Mr. Gimble. 75 was the total interviews. They did not all 
work for Mr. Feith.
    Senator Warner. All right. But do you get my point? I am 
trying to suggest that people with good intentions at those 
levels, they have their own self-respect and their own interest 
in America to see that things are being handled right.
    Now, you said that some of those staff or some members of 
Feith's staff did some of the briefing as opposed to Feith, 
which means that staff were involved, and they intentionally, I 
presume, did not bring forward the dissenting opinions.
    Mr. Gimble. The briefings, I think you have all seen the 
three sets of charts. They speak for themselves. They made 
their position. All we are saying is there were other positions 
behind the underlying analysis, that there was considerable 
disagreement with the very community that were charged with 
providing intelligence.
    This is not to say that alternative intelligence is not a 
viable thing to do. We certainly agree that it is. However, 
when you have a disagreement, our position was it should be put 
into the briefing when you make the presentation.
    Senator Warner. I understand that, but someone or some 
several people made a decision not to include the dissenting 
opinions. Was that done by Feith personally or was it done by 
subordinates or some of these professionals, the structure that 
worked with him?
    Mr. Gimble. There is a memo out that we can provide to you. 
It says that we do not have to have a consensus.
    Senator Warner. All right, this is new evidence. Where is 
this memo and who issued it and what is the date-time group of 
it? It is obviously not classified?
    Mr. Gimble. It is not classified. It is dated August 8, 
2002.
    Senator Warner. August what?
    Mr. Gimble. August 8, 2002. ``Today's Briefing'' is the 
subject, a memo from Paul Wolfowitz, to Tina Shelton, Jim 
Thomas, Chris Carney, Abe Shulsky, cc: Doug Feith:

          ``This was an excellent briefing. The Secretary was 
        very impressed. He asked us to think about some next 
        possible steps to see if we can illuminate the 
        differences between us and the CIA. The goal is not to 
        produce a consensus product, but rather to scrub one 
        another's arguments.''
          ``One possibility would be to present this briefing 
        to senior CIA people with their Middle East analysts 
        present. Another possibility would be for the Secretary 
        and the DCI to agree on setting up a small group with 
        our people combined with their people to work through 
        those points on which we agree and those points on 
        which we disagree, and then have a session in which 
        each side might make the case for their assessment.
          ``Those are just suggestions. I would very much like 
        to get some ideas from you when I get back sometime 
        after August 19.''

    Senator Warner. We will need to have that, Mr. Chairman.
    You are reading from a book marked ``SECRET,'' are you not, 
on the top?
    Mr. Gimble. We have it bookmarked.
    Senator Warner. I beg your pardon? We are very careful 
about classified material on this committee.
    Mr. Gimble. We have SECRET material in here, but that 
particular document----
    Senator Warner. It is commingled classified and 
unclassified?
    Mr. Gimble. We have classified and unclassified.
    Chairman Levin. We will make that part of the record.
    Thank you.
    [The information referred to follows:]
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Warner. Are there other pertinent parts of this 
briefing book which the committee does not have at this time?
    Mr. Gimble. I am not sure what you have. But I would be 
more than happy, we can go back in closed session and let you 
review it.
    Senator Warner. If you will see that that is done, Mr. 
Chairman.
    Chairman Levin. What we will do is also, we are going to 
ask you to provide us all of the unclassified material that is 
in your report in a single document or to give us the report 
redacting the classified material, one or the other, because 
most of that report that you have marked ``Classified'' is 
unclassified.
    [See ANNEX A]
    Senator Warner. Now, back to the witness again----
    Chairman Levin. I think we have to go back to our time 
here, Senator Warner.
    Senator Warner. Could I just ask one single additional 
question, Mr. Chairman, because I had quite a few 
interruptions?
    Your conclusions are reached on the basis of a number of 
briefings given either by Feith or his staff to principals 
within our executive branch, correct?
    Mr. Gimble. Right.
    Senator Warner. Do you know whether or not you have had the 
opportunity to examine all the briefings or, if not, how many 
of the briefings, and for what reason did you not if you did 
not do all of the briefings?
    Mr. Gimble. We examined each of the three briefings in 
question.
    Senator Warner. Are there only three briefings in question?
    Mr. Gimble. The three briefings that--we have all the 
underlying data that builds up to that, but that is the three--
--
    Senator Warner. Let me--I am having difficulty listening to 
what you say. What again?
    Mr. Gimble. The basic issue and thrust of our report deals 
with the events that were captured in three briefings that 
went, one to the Secretary of Defense; to the DCI, Mr. Tenet; 
and then subsequently to the National Security----
    Senator Warner. Were there other briefings?
    Mr. Gimble. We have a lot of documentation, but these are 
the briefings that we were focused in on.
    Senator Warner. But if we are going to judge three, it 
seems to me in fairness you might judge other briefings so that 
you have the full context and spectrum of the briefings?
    Mr. Gimble. These are the briefings that when we did the 
tasking of this particular task it evolved out to be these 
three briefings, and there's a host of other reports, 
memorandums. We have many, many pages of documentation that we 
went through. But when it all boiled out to where you were 
pushing things forward, it was captured in three briefings.
    Senator Warner. In any of this other documentation or to 
the extent you examined other briefings, did you find a similar 
pattern of what you characterize as intentional deception by 
virtue of not including contradictory views?
    Mr. Gimble. We did not classify anything as intentional 
deception. What we just said is there was an omission that we 
thought should have been in there to give the balance.
    Senator Warner. So it was an error of judgment, then, by 
the principals, a good faith error of judgment?
    Mr. Gimble. One could categorize----
    Senator Warner. Or an intentional deception?
    Mr. Gimble. I would not--I do not know whether it was 
intentional or whether it was good faith judgment. That is not 
my position that I would have a thought on that. All I can tell 
you is that at the end of the day when those things went 
forward there were two sets of facts out there. One of them got 
passed over and it happened to be the one that is in the very 
community that we look to to have this kind of information.
    Senator Warner. I know my time is up. I thank the chair. 
But I do have serious reservations about the manner in which it 
was conducted and the thoroughness, and I do hope that----
    Chairman Levin. The manner in which what was conducted?
    Senator Warner. The manner in which this investigation was 
conducted and the thoroughness of it. I do hope----
    Chairman Levin. We will make up for any shortfalls. You can 
be very sure we will take up your suggestion that any 
shortfalls in this investigation will be made up for by this 
committee.
    Mr. Gimble, you talked about three different presentations. 
There were three versions, three different versions of the same 
presentation, is that correct?
    Mr. Gimble. That is what I was referring to.
    Chairman Levin. All right. So instead of telling the CIA 
when this assessment was given to the CIA that the Feith 
operation had ``fundamental problems with how the Intelligence 
Community is assessing information''--that is the title of a 
slide which was presented to the White House--that slide was 
left out, was it not, when this assessment was given to the 
CIA?
    Mr. Gimble. It was left out.
    Chairman Levin. Now, you can say that was a matter of 
judgment. You can say that was unintentional. It is damn 
suspicious to me that if you are giving them an assessment that 
disagrees in a number of respects with theirs, but leave out a 
slide that says you have fundamental problems with how the 
Intelligence Community is assessing information and you remove 
it when you are talking to the CIA, and then you reinsert it 
when you present the same assessment to the White House, that 
is mighty bloody suspicious.
    Now, I know, that is not your job, to assess suspicion.
    Senator Sessions. Suspicion of what?
    Chairman Levin. Suspicion of intent.
    Senator Warner. But it was his job to determine under what 
circumstances and who made the decision.
    Chairman Levin. I agree. I could not agree with you more, 
and we are going to talk to Mr.--if you have not asked Mr. 
Feith why that was left out--have you?
    Mr. Gimble. We did.
    Chairman Levin. You did?
    Mr. Gimble. We did, yes, sir.
    Chairman Levin. What did he say?
    Mr. Gimble. He said it was left out because it was critical 
of the Intelligence Community.
    Chairman Levin. Oh, he intentionally left it out. There you 
go. How is that for intention? That is not----
    Senator Warner. Wait a minute. Can we allow the witness?
    Chairman Levin. He intentionally left out this slide.
    Senator Warner. Well, anyway----
    Chairman Levin. Wait a minute.
    Senator Warner. Can we have order?
    Chairman Levin. Yes, we are going to have order here.
    Mr. Gimble, did Mr. Feith say he intentionally left out 
this slide when presenting this to the CIA?
    Senator Warner. Can we have the witness that interviewed 
Feith address us?
    Chairman Levin. No, I will first ask Mr. Gimble and then he 
can refer to her if he wishes, and we will ask her to identify 
herself.
    Mr. Gimble, did Mr. Feith tell you or your staff that he 
intentionally left this slide out because it was critical of 
the CIA?
    Mr. Gimble. He said it was left out because it was critical 
of the Intelligence Community.
    Chairman Levin. Okay. That is all I said.
    Senator Sessions. Of course.
    Chairman Levin. Now it is ``of course.'' Before there was a 
question of what is the relevance as to whether it was 
intentional or not intentional. The point is it was 
intentional.
    Now, Mr. Gimble, was this slide reinserted when this 
assessment was given to the White House?
    Mr. Gimble. It was reinserted.
    Chairman Levin. Next question: When this assessment was 
made, one of the statements that was made about the meeting in 
Prague, was it not, in something called ``Summary of Known''--
``Known''--``Iraq-al Qaeda Contacts,'' that ``2001, Prague, 
IIS''--that is the intelligence service--``Chief al-Ani meets 
with Mohammed Atta in April''? Flat-out statement, right; is 
that correct? Am I reading correctly from that slide?
    Mr. Gimble. Yes, sir.
    Chairman Levin. Now, at the same time--this is not 2006; 
this is September 2002, the exact same time when this slide 
show was being presented to the White House--was it not true 
that the Intelligence Community in its report called ``Iraqi 
Support for Terrorism,'' they had assessed that--excuse me, I 
am sorry. In January 2003, January 2003, that the CIA assessed 
that ``The most reliable reporting to date casts doubt on this 
possibility''?
    Mr. Gimble. Yes, sir.
    Chairman Levin. Pardon?
    Mr. Gimble. Yes, sir.
    Chairman Levin. Thank you.
    We are going to have a 6-minute round here, by the way.
    Now, the reason we are here--and that question was raised, 
why are we here--is it not true that we are here because the 
then-chairman of the SSCI, Senator Roberts, asked you to 
undertake this investigation? Is that correct?
    Mr. Gimble. He asked me--at that time the IG--it was not 
me. But he asked our office to undertake----
    Chairman Levin. I mean your office.
    Mr. Gimble. Yes, sir.
    Chairman Levin. Your office was asked to undertake this 
investigation by the SSCI chairman, is that correct?
    Mr. Gimble. That is correct.
    Senator Warner. Might the record show he was at that time 
also a member of this committee. Senator Roberts was a member 
of both committees.
    Chairman Levin. The record will show that.
    Senator Warner. As chairman I was aware and supported his 
inquiry on this matter.
    Chairman Levin. The record will reflect that statement.
    Now, we asked--I asked you to investigate whether the 
policy office undercut the Intelligence Community in its 
briefing to the White House with a slide that said there were 
fundamental problems with the way the Intelligence Community 
was assessing the relationship between Iraq and al Qaeda. Is it 
true that your report on page 33 confirms that in fact it did 
in that manner undercut the Intelligence Community?
    Mr. Gimble. Yes, sir, that is what our report says.
    Chairman Levin. Now, the 9/11 Commission report--this goes 
to a different report--discusses a meeting of what they call 
the President's war council that took place at Camp David on 
September 15-16, 2001, just days after the September 11 
attacks. The report states that a DOD paper produced for that 
meeting ``argued that Iraq posed a strategic threat to the 
United States. Iraq's longstanding involvement in terrorism was 
cited.''
    Now, a footnote in that September 11 report cites a 
September 14, 2001, DOD memo from the Feith office titled ``War 
on Terrorism, Strategic Concept.'' That report, according to 
the 9/11 Commission, was presented to the President at Camp 
David 4 days after September 11.
    Did you review the September 14, 2001, DOD memo prepared by 
Secretary Feith?
    Mr. Gimble. I do not believe we reviewed that.
    Chairman Levin. Did you try to review that?
    Mr. Gimble. I am just not familiar with that document, 
Senator.
    Chairman Levin. We will ask the Secretary of Defense for a 
copy of  the  September  14,  2001,  Feith  memo  which,  
according  to  the  9/11 Commission report, was discussed at 
Camp David on September 15 and 16, 2001. We will ask that, not 
of you, but of the Secretary of Defense.
    My time is up.
    Senator Warner. Mr. Chairman, could the chair ask that this 
memorandum which is in question, and that was read by the 
witness, now be duplicated and given to the members of the 
committee so that in our next round we might have the benefit 
of that?
    Chairman Levin. Absolutely.
    Senator Warner. I think it would be helpful.
    Chairman Levin. You know exactly what document Senator 
Warner is talking about?
    Mr. Gimble. Yes, sir.
    Chairman Levin. Senator Chambliss.
    Senator Chambliss. Mr. Gimble, let us go back to this 
infamous slide here. You said that it was omitted from the DCI 
briefing because it was critical of the Intelligence Community. 
Is that correct?
    Mr. Gimble. That is what Secretary Feith provided us in 
writing, yes, sir.
    Senator Chambliss. So he admitted that was the case. Now, 
even without that omitted slide, did you form a conclusion that 
it was very clear from the overall content that the draft 
briefing was suggesting insufficient attention and analysis by 
the Intelligence Community to a number of intelligence reports 
on contacts between Iraq and al Qaeda? Is it not also correct 
that you concluded that that point was explicitly made at a 
subsequent meeting at the CIA on August 20, 2002?
    Mr. Gimble. I kind of got lost in your question.
    Senator Chambliss. Did you make any conclusion about the 
content of the briefing as it related to contacts between al 
Qaeda and Iraq even without the slide that was left out of the 
briefing of the DCI?
    Mr. Gimble. Senator, we did not conclude one way or the 
other. The only thing we concluded, that there were differences 
of opinion that were not reported and not reconciled, and our 
position was that those differing opinions with the consensus 
of the Intelligence Community should have been included and 
they were not included.
    Senator Chambliss. Okay. Now, with all due respect to my 
colleague from Missouri, you do have opinions in this report. 
Did you conclude that there was anything illegal about what Mr. 
Feith's office did?
    Mr. Gimble. We concluded there was nothing illegal. We also 
concluded there was nothing unauthorized.
    Senator Chambliss. You then went on to conclude that it was 
inappropriate, and as I understand what you have said is that 
it was inappropriate because alternative views within the 
Intelligence Community were not included?
    Mr. Gimble. That is correct.
    Senator Chambliss. Now, Mr. Gimble, can you tell this 
committee that every time the DCI gets a briefing that every 
alternative view on the issue that he is being briefed on is 
presented to him?
    Mr. Gimble. No, sir. I usually do not deal much with the 
DCI. I am a DOD person. So I cannot tell you that.
    Senator Chambliss. Let us go to DOD. Can you tell this 
committee that every time the Secretary of Defense is briefed 
on an issue that every possible alternative view is given to 
him?
    Mr. Gimble. I certainly cannot.
    Senator Chambliss. You could criticize every single 
briefing that is given to the Secretary of Defense if that is 
not the case, could you not?
    Mr. Gimble. We only looked at this one set of briefings, 
this one briefing that was presented in three versions, and we 
are reporting what happened on that briefing. There were 
significant disagreements. The disagreements were not posed and 
presented at the same time. We thought that was inappropriate, 
and you are right, I do have an opinion, and that was my 
opinion.
    Senator Chambliss. Lastly, it has been communicated to me 
that one of the members of your staff told a person that was 
being interviewed during the course of this investigation that 
because of the political nature of this inquiry that your 
office was going to have to balance the results and that the 
final report was going to have something for everyone.
    Are you aware of those comments?
    Mr. Gimble. No, sir, I am not aware of those comments and I 
would be very interested in who made them and who they made 
them to.
    Senator Chambliss. Is it appropriate for your staff to take 
political sensitivities into account when drafting a report?
    Mr. Gimble. No, sir. We take the facts and we try to bring 
them down to an objective conclusion, and that is what we did 
in this report.
    Senator Chambliss. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Chambliss.
    Senator Webb.
    Senator Webb. Mr. Gimble, I want to clarify something that 
goes to the exchange that Senator McCaskill had with you and 
that Senator Chambliss just mentioned to you. My understanding 
from reading your summary here is that when there was a finding 
of the inappropriate nature of this activity it was not simply 
that it failed to mention alternate views, that it was 
specifically and as you said--and I quoted you in the earlier 
round--that in some cases--I think you were being very careful 
how you answered that--in some cases this information was being 
shown as intelligence products from an office that is a policy 
office, rather than an evaluation, an assessment of 
intelligence products. Was that correct?
    Mr. Gimble. That is correct.
    Senator Webb. So it is something more than simply not 
presenting both sides. It is a policy office that is not an 
intelligence office presenting information as an intelligence 
product.
    I want to say something else, too, in defense of your 
report to the extent that it now exists. There has been a lot 
of conversation here about Mr. Feith, but you specifically said 
in a comment to the chairman here that, although Mr. Feith is 
mentioned in the review, he is not the subject of the review; 
the review is focused on the organization. I think that is very 
important for us to continue to understand here.
    This is not a report that was directed specifically at Mr. 
Feith. It was directed at the office, the total office, and in 
fact how DOD at this level was evaluating information and 
presenting it in the run-up to the Iraq war. Would you agree 
with that?
    Mr. Gimble. Senator, yes, I would agree with that. It was 
not directed at any one individual. It was a review of the 
facts surrounding an issue, a fairly narrow-scoped issue, and 
it is how intelligence is----
    Senator Webb. I think that is important from my perspective 
here, too. I am not sitting here in direct condemnation of one 
individual. I have concerns, as I mentioned, about how this 
information was presented, and Mr. Feith will have to accept 
accountability for his part in this, but this is not directed 
at him personally.
    It would seem to me, just from listening to the exchange, 
obviously not having been on this committee in the preceding 
years, that the two agreed-upon--perhaps there are others; my 
esteemed senior Senator from Virginia might raise others--but 
the two most glaring weaknesses in this report seem to be that 
Mr. Feith was not interviewed under oath, given some 
inconsistencies, and that people such as Mr. Hadley declined to 
be interviewed at all. Neither of those omissions would seem to 
argue in favor of a report that further excused the conduct in 
this office.
    Mr. Chairman, that is all I have to say.
    Chairman Levin. Thank you.
    Senator Sessions.
    Senator Sessions. It seems to me that the only thing that 
would justify a conclusion that you have made would be the 
briefing to the National Security Assistant, Mr. Hadley, 
because surely there is nothing wrong with a group of people in 
DOD going to the Secretary of Defense and saying that they are 
concerned about the CIA product because it left out some things 
that they have discovered in their evaluation of the supporting 
data.
    Would you agree?
    Mr. Gimble. I think internally in the DOD it is okay to 
have dissenting views and have discussion. When you disseminate 
those, when you take it out, and I would say that when you take 
an alternate intelligence assessment outside the Department----
    Senator Sessions. You answered my question.
    Chairman Levin. Can he just finish?
    Senator Sessions. No, he is going on to something else I 
did not ask, Mr. Chairman. I asked him was it wrong to share it 
and he said there was not anything wrong to share that with the 
Secretary of Defense.
    Now my next question is, if you have a complaint with the 
CIA and you go and meet with the Director of the CIA and his 
staff and you raise those same complaints, is there anything 
wrong with that briefing?
    Mr. Gimble. The next part of that is, though, is when he 
calls together the community to vet this out and then you vet 
it out and then you carry the briefing further and----
    Senator Sessions. Then you are answering my question. There 
is nothing wrong with saying that to the CIA Director. The 
result of that----
    Chairman Levin. Why don't you allow him to finish the 
answer to that question?
    Senator Sessions. You can interpret it as you want to, Mr. 
Chairman. I see it as a defensive answer, not responsive to a 
plain and simple question.
    Go ahead. Yes or no, is it okay to brief the CIA on the 
problems you have with their work product?
    Mr. Gimble. It is okay to brief, but remember he took the 
chart out saying they had a problem.
    Senator Sessions. We are getting to that.
    Now, the next briefing is the one you complain about, 
right? That is the one to the National Security Advisor. You 
contend that in that briefing he did not give a full analysis 
of the CIA's competing views.
    Mr. Gimble. That is correct.
    Senator Sessions. Forgive me if I think that is pretty 
weak. Here Mr. Wolfowitz, Assistant Secretary of Defense, right 
after the briefing to the Secretary of Defense said, we need to 
meet with the ``senior CIA people with their Middle East 
analysts present. Another possibility would be for the 
Secretary and the DCI to agree on setting up a small group with 
our people combined with their people to work through those 
points on which we agree and those we disagree.''
    Is that not a responsible way to deal with a problem of a 
very important issue?
    Mr. Gimble. It is absolutely a very responsible way, and 
when they did that and then when they had the meeting on August 
20, the next line of briefing they chose to ignore those things 
that were discussed. Then the points that were made of 
disagreement, I think it would have been responsible to provide 
the decisionmakers with that alternate position.
    Senator Sessions. All right. Now, so the next event that 
occurred was that they were asked, these staffers--as Senator 
Warner has pointed out, these are professionals; you have not 
doubted their integrity or their honest belief in what they 
discovered. They were asked to go and share this information 
with Mr. Hadley and Mr. Libby and they presented their 
information on a slide titled ``Fundamental Problems with How 
the Intelligence Community Is Assessing Information.''
    Now, that seems to me that they are sharing some concerns 
that they have with the National Security Advisor that he may 
not be getting full and complete information from CIA. One of 
these little turf battles, but in an important matter 
sometimes.
    Mr. Gimble. I do not disagree with that. It would seem to 
me, though, that if you were going to make that presentation 
you do a full-blown, this is one side, this is the other side.
    Senator Sessions. He was presenting the problems, it seems 
to me if you read this. Surely Mr. Hadley was not unaware that 
the CIA's consensus report presumably was different, else he 
would not be pointing out what the differences were.
    Mr. Gimble. I am not aware what Mr. Hadley knew or did not 
know.
    Senator Sessions. This is important because is it not true 
that Mr. Feith, he did not even go to this briefing with Mr. 
Hadley? His professionals, these young folks who dug up this 
information, made the briefing.
    Mr. Feith contends vigorously, does he not, and his staff 
that the purpose of that briefing was not to state an 
intelligence estimate, but to point out problems with the 
analysis they were working from? Is their defense to your 
complaint that?
    Mr. Gimble. Our interpretation of that was, and it is my 
opinion, that----
    Senator Sessions. Wait a minute. No, I say isn't their 
position? You stated it earlier. Is it not their position that 
they were not stating an intelligence estimate; they were 
pointing out problems with the CIA product?
    Mr. Gimble. One slide made that point.
    Senator Sessions. All right, they made that point. They 
shared that with you when you asked them about what was going 
on, did they not? You said that earlier in your remarks.
    Mr. Gimble. We had full access to all information, yes, 
sir.
    Senator Sessions. Mr. Gimble, in your remarks earlier at 
this meeting you indicated that their concern with your report 
about whether what they did was appropriate or not was that you 
did not seem to understand that they were not presenting an 
entirely new work product to the Assistant National Security 
Advisor, but they were pointing out problems with the CIA work 
product.
    Mr. Gimble. The remainder of that comes to some pretty 
hard, pretty definitive conclusions about intelligence. So you 
can say, yes--if they want to characterize this as a critique, 
but it also is characterized as an alternate intelligence 
product.
    Senator Sessions. You have concluded that. Now, the people 
at the briefing did not agree with that, and Mr. Hadley has not 
been interviewed. So how have you made that conclusion?
    Mr. Gimble. Got a copy of the report, the briefing, and we 
have interviewed the people that put it together. We have 
looked at the degree of disagreement within the community and 
how that was handled. That is really our issue, is the degree 
of disagreement and as to how it was handled.
    Senator Sessions. I do not see a problem with it. To me it 
is right up on top.
    Then Senator Levin says that this somehow undercut the 
Intelligence Community. I do not see how it is undercutting the 
Intelligence Community--correct me if I am wrong--if you point 
out things they left out that should have been in their 
analysis, and that after they made these references a number of 
them were put in that report, including the Atta report. Was 
the Atta report from the Czech Republic that he had met with 
the Iraqi intelligence group in the CIA report before it was 
dug up by Mr. Feith's professional staff?
    Mr. Gimble. It has been in a number of reports. The issue 
there is that----
    Senator Sessions. No, no, no, no, no.
    Mr. Gimble. The issue is that briefing came to some 
conclusions that were not supported by the underlying 
Intelligence Community assessments. That was our point.
    Senator Sessions. Is there anything wrong with another 
group going in to Mr. Hadley and saying, we have some 
disagreements, we have read all these documents, we found 
things they left out and we are not in agreement with it?
    Mr. Gimble. It was not characterized that way. If you look 
at the briefing charts, it was characterized as here are the 
conditions and conclusions, and there was no thought about 
where the same view is.
    Senator Sessions. The whole point was that they were 
raising concerns with the CIA's analysis. It is obvious, it is 
a given, that they were providing information that was somewhat 
in disagreement with parts of the CIA analysis, surely.
    Mr. Gimble. We are looking in June. There was a statement 
in the CIA reports that says that this was contradictory.
    Senator Sessions. I will ask you one more time. I think it 
is important. The CIA consensus opinion at the time this all 
began to occur did not include reference to the Czech Republic 
matter, is that correct? It did not?
    Mr. Gimble. It is incorrect.
    Senator Warner. Are we getting testimony from a witness who 
has not been identified?
    Chairman Levin. Let us identify the lady to your left, 
please.
    Mr. Gimble. This is Commander Tammy Harstad. She is one of 
our senior analysts.
    Chairman Levin. Do you want to just say whatever you were 
saying?
    Senator Warner. She could just grab the other microphone 
there and then both of you can have a mike.
    Thank you. We welcome you, Commander. Obviously, as a naval 
person I can see that you have had quite a distinguished 
career.
    Chairman Levin. Can you give us the answer you were giving 
us, Commander?
    Commander Harstad. Yes, sir. The reports of the meeting, 
the Czech report----
    Senator Warner. I am not able to hear.
    Chairman Levin. Can you talk a little louder, please?
    Commander Harstad. Yes, sir.
    The report, the Czech report of the meeting, was in a CIA 
product in June 2002, prior to the production of the briefings.
    Senator Sessions. Prior to--well, it was, obviously, 
because it was found by these people in Mr. Feith's office. But 
was it in their consensus analysis, because they had some doubt 
about it?
    Commander Harstad. It was described as being contradictory 
at best.
    Senator Sessions. In the analysis that Mr. Hadley would 
have had?
    Commander Harstad. I do not know, sir, what Mr. Hadley 
would have had. That was what was in the CIA product on June 
21.
    Chairman Levin. Of what year? Sorry. What year?
    Commander Harstad. 2002.
    Senator Sessions. It is pretty obvious, would not you 
agree, that the Feith staff presented to Mr. Hadley information 
that came out of either raw reports or CIA summaries and DIA 
information, that put a different context on some of the 
matters relating to the Iraq-al-Qaeda connection or lack of it?
    Commander Harstad. Yes.
    Senator Sessions. I do not see how that is inappropriate, 
and I do not believe they are required to present the whole CIA 
conclusion before you present a contrary conclusion when 
people, everyone hearing, would have known that this 
represented a divergent view from the CIA. I think not only has 
Mr. Feith not violated a law, as you found, that he acted with 
authority, but I think he acted appropriately. I do not believe 
the CIA has an absolute right and a monopoly on conclusions 
about intelligence.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    Could the witness remain that was testifying. I may have a 
question for you. Thank you.
    But first, Mr. Gimble, I have the highest respect for the 
whole IG system. I collaborated with the preparation of the 
various bills and so forth to establish the laws. For the some 
many years that I have been on the committee with our 
distinguished chairman--we are in our 29th year--we have seen 
and dealt with many very able IGs. So in no way am I trying to 
discredit in any way your professionalism.
    But this is such an important case that we have to bear 
down and determine just what procedures you used and so forth.
    Would you say, given--and you have had a long career. How 
many years in the IG?
    Mr. Gimble. In the IG, I was moved over in 1976, and that 
was before----
    Senator Warner. You have to talk--I am sorry.
    Mr. Gimble. I have been with the DOD IG since the day it 
was formed and I was in the predecessor organization before 
that. So I have over 35 years.
    Senator Warner. Thirty-five years, and we have dealt 
together in the years past and I have a high respect for your 
professionalism.
    Would you regard this as one of the most important cases 
that you have dealt with?
    Mr. Gimble. I would.
    Senator Warner. Fine.
    Did you personally interview any of the witnesses, the 
principal witnesses, given the importance and the criticality 
of this?
    Mr. Gimble. I did not.
    Senator Warner. So you delegated all of that to others?
    Mr. Gimble. Right.
    Senator Warner. Secretary Rice was then the head of the 
Security Council. Were her views sought?
    Mr. Gimble. We did not attempt to interview her.
    Senator Warner. Beg your pardon?
    Mr. Gimble. We did not attempt to interview her.
    I just need to make a quick point. When we get outside of 
DOD employees, it is if they want to be interviewed we can. We 
do not really have any authority to interview anybody outside 
the Department. So we would not necessarily have any authority 
to interview her.
    Senator Warner. Could you go to others to try and see 
whether or not they could induce various principals to----
    Mr. Gimble. We have had some----
    Senator Warner. You could go to the Secretary and say, Mr. 
Secretary, you are a part of the Department in which he 
operates, I would like to interview some witnesses, but I am 
having difficulty; would you assist me in getting those 
witnesses?
    Mr. Gimble. We interviewed a lot of people outside the 
Department and got, we thought, good cooperation. We just did 
not attempt to interview Secretary Rice.
    Senator Warner. Did you interview Secretary Wolfowitz?
    Mr. Gimble. We did.
    Senator Warner. Now, this very able commander, your 
portfolio, you were detailed to the IG's office, is that 
correct?
    Commander Harstad. Yes, sir. I transferred there.
    Senator Warner. Now, you did a lot of the interviews and 
debriefings of these principals yourself?
    Commander Harstad. I did several----
    Senator Warner. A little louder.
    Commander Harstad. Yes, sir, I did participate in----
    Senator Warner.--I have a cold and some of the medicine has 
impaired the hearing. What is that again?
    Commander Harstad. I did participate in some of the 
interviews.
    Senator Warner. Which ones did you----
    Commander Harstad. None of the principals that you would 
expect.
    Senator Warner. Who did the principals?
    Commander Harstad. We had representation from our former 
team chief, and also Office of the General Counsel went on 
several of those interviews as well.
    Senator Warner. So perhaps, Mr. Gimble, you want to 
clarify. Who were the principals under your jurisdiction that 
did the actual interviews of the principals?
    Mr. Gimble. Most of the interviews were done by Lieutenant 
Colonel Eddie Edge, who is----
    Senator Warner. Is he present today?
    Mr. Gimble. He is not.
    Senator Warner. Fine. The question that--wait a minute. You 
are getting advice from your colleague. Did you want to get 
more information? I hear him speaking to you. Did you finish 
your answer?
    Mr. Gimble. We were just talking about where Eddie was.
    Senator Warner. Beg your pardon?
    Mr. Gimble. We were just talking about where Lieutenant 
Colonel Edge is. He is in the process of retiring. So that is 
the reason he is not here.
    Senator Warner. I see.
    Commander, let me just ask you a question. No one is 
questioning any patriotism. It seems to me we are questioning 
judgment, and the issue was why did certain individuals make 
the decision not to make full disclosure of dissenting 
perspectives on these critical intelligence questions. Do you 
agree that is the issue before us this morning?
    Commander Harstad. Why did certain----
    Senator Warner. I guess my question is, having listened 
very carefully, and I have seen at least a dozen exchanges 
between you and Mr. Gimble, which is fine--I have occupied that 
seat in years past when I was Secretary of the Navy and I know 
you have to rely on staff. But there was an unusual number of 
consultations. Do you have any information with which you could 
give this committee to explain why this material was 
intentionally withheld in the various briefings we have talked 
about?
    Commander Harstad. I do not think I know anything that 
would answer that question, sir.
    Senator Warner. Do you know of any individual within the 
staff that might have knowledge, Mr. Gimble's staff, that could 
help this committee understand why certain materials were 
deleted during these critical briefings?
    Commander Harstad. As far as why the fundamental issues 
slide was deleted from the DCI brief----
    Senator Warner. Yes.
    Commander Harstad. --that I am certain, because Mr. Feith 
submitted a written statement to us prior to his debrief or his 
interview, and in that statement----
    Senator Warner. Is that the statement that we are referring 
to today?
    Commander Harstad. No, sir.
    Senator Warner. It is another statement?
    Commander Harstad. It is other than what you have in front 
of you there, sir.
    Senator Warner. This is a document?
    Commander Harstad. Yes, sir. It is a----
    Senator Warner. Does the committee have possession of this 
document?
    Commander Harstad. Probably not, but it is unclassified and 
can be provided.
    Senator Warner. Do you know where it is?
    Commander Harstad. Yes, sir. It is in our building.
    Senator Warner. But it is not here in the hearing room 
today?
    Commander Harstad. No, sir.
    Senator Warner. Could we have that document?
    Chairman Levin. Of course.
    Are you able to quote from that document?
    Senator Chambliss. We have that document.
    [See ANNEX B]
    Commander Harstad. Pretty close, sir. Mr. Feith has said in 
a number of different letters as well that the reason that 
slide was removed is because it was critical in tone and it may 
distract from the dialogue between the analysts. He's said that 
more than once, in writing.
    Senator Warner. We will need to explore that, Mr. Chairman.
    I think the chair is anxious to go to the second part of 
this hearing; is that correct?
    Chairman Levin. We are anxious, but we also have a few 
additional questions which we are going to ask. Each of us can 
perhaps take a couple minutes.
    First of all, you made reference to the fact that the 
Czechs reached a conclusion in 2006 that the meeting did not 
take place as a matter of conclusion. I would urge you to go 
back, look at the classified material, because I think you are 
wrong on that. They suggested or reached a conclusion long 
before 2006. But it is classified as to when exactly they did 
reach it, so we would ask you to review for the record the time 
at which, the point at which the Czechs concluded that the 
meeting did not exist. This is just a statement and a request.
    [The information referred to follows:]

    Our response to the request from Chairman Levin is classified 
(Secret/NOFORN) and has been provided to the committee as an attachment 
to the question for the record (submitted by Chairman Levin) regarding 
the Feith briefing on the Atta meeting.

    Chairman Levin. Second, you indicated that at the meeting 
following the slide presentation that there then was, I 
believe--the date where the 26 points were identified, the date 
of that meeting with the CIA personnel, what was the date of 
that?
    Mr. Gimble. August 20, 2002.
    Chairman Levin. They identified the 26 points where they 
disagreed with perhaps half of what the presentation said; is 
that correct?
    Mr. Gimble. That is correct. But the 26 points were 
ferreted out before then. This was the meeting that occurred 
after the briefing with Mr. Tenet.
    [Additional information provided for the record follows:]

    The 26 points were not discussed individually at this meeting. The 
26 points formed the basis for the briefing slides presented to Mr. 
Tenet and were also the basis for the OUSD(P) discussion with CIA 
personnel on August 20, 2002.

    Chairman Levin. Then after that meeting they had another 
meeting; is that correct?
    Mr. Gimble. When he said, let us get this back in the 
analytical channels, he had his analysts and the policy folks 
from Mr. Feith's shop all gathered up on August 20.
    Chairman Levin. August 20, and the Feith shop folks were 
there?
    Mr. Gimble. Yes, sir.
    Chairman Levin. They identified the differences?
    Mr. Gimble. My understanding is they discussed the 
differences. There were some things they agreed on, things they 
did not agree on. There were some adjustments made and then 
there were still disagreements at the end of the day.
    Chairman Levin. All right. Then were those disagreements 
identified presented in any way that you know of in the slide 
show that was presented to the National Security Council?
    Mr. Gimble. No, sir.
    Chairman Levin. Now, when you answered my question that the 
slide undercuts the Intelligence Community by indicating to the 
recipient of the briefing that there are fundamental problems 
with the way the Intelligence Community was assessing 
information, you gave as evidence of the fact that that slide 
undercut the Intelligence Community, you said, ``by observing 
the Vice President's words during an interview in which he 
describes a memorandum that was obtained and published by the 
Weekly Standard.'' There was a memorandum from the Under 
Secretary of Defense, Mr. Feith, to members of the SSCI, as 
``your best source of information.'' Is that correct, that was 
your answer to my question?
    Mr. Gimble. Yes, sir.
    Chairman Levin. Now, I am going to put in the record at 
this time the statement of Vice President Cheney that you make 
reference to, and here is what he said: ``With respect to the 
general relationship''--he is referring to between, whether 
there was one, et cetera, al Qaeda and Saddam--``One place you 
ought to go look'' the Vice President said, ``is an article 
that Steven Hayes did in the Weekly Standard that goes through 
and lays out in some detail, based on an assessment that was 
done by the DOD and forwarded to the Senate Intelligence 
Committee some weeks ago, that is your best source of 
information.''
    That is significant for a number of reasons. Number one, 
that is what he said was the best source of information. Number 
two, it was--he described the report of the Feith operation as 
``an assessment.'' The Vice President himself called that ``an 
assessment.'' So when there is argument here from some of my 
colleagues as to whether you are correct in calling that an 
assessment, it seems to me it was understood as an assessment 
by as high a personage as the Vice President of the United 
States, not just simply a critique of something else, but an 
assessment.
    [The information referred to follows:]
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Levin. What you have told us here today, Mr. 
Gimble, is that intelligence products, intelligence 
assessments, are supposed to indicate where there are 
disagreements; is that correct?
    Mr. Gimble. They are supposed to be vetted and if there are 
disagreements----
    Chairman Levin. They are supposed to be vetted?
    Mr. Gimble. Right, to reconcile and mitigate any 
disagreements. But at the end of the day if there are 
disagreements, both points should be presented.
    Chairman Levin. Thank you.
    Could we perhaps each have a few more questions if you 
would like.
    Senator Chambliss.
    Senator Chambliss. Sure. Just very quickly, Mr. Chairman.
    Mr. Gimble, let me just go back to this slide and your 
answer to question number 8 from Senator Levin. Your answer is 
that: ``We believe the slide undercuts the Intelligence 
Community by indicating to the recipient of the briefing that 
there are fundamental problems with the way that the 
Intelligence Community was assessing information.''
    The fact is, Mr. Gimble, that is a very, very accurate 
statement, is it not?
    Mr. Gimble. I am sorry, Senator. I was trying to read this.
    Senator Chambliss. In your response to question number 8 
from Senator Levin, you say that the slide that is referenced 
in that question ``undercuts the Intelligence Community by 
indicating to the recipient of the briefing that there are 
fundamental problems with the way that the Intelligence 
Community is assessing information.''
    Now we know, because of what happened on September 11 and 
because of the intelligence that was given to the 
decisionmakers prior to the decision of whether or not to go 
into Iraq, that statement is absolutely truthful, is it not?
    Mr. Gimble. I think the statement is truthful, yes, sir.
    Senator Chambliss. There were fundamental problems with the 
way the community was assessing information; is that right?
    Mr. Gimble. I do not think that is what our answer says. We 
are just saying that the slide was put out there saying that 
there were fundamental problems.
    Senator Chambliss. But my question is, is that not a very 
accurate statement, that there were fundamental problems?
    Mr. Gimble. You can find examples of having problems. I am 
not sure that I can make an overall assessment of the overall 
intelligence processes based on this one review.
    Senator Chambliss. Let me go back to your comment in 
response to Senator Webb when he asked you as to whether or not 
this was an intelligence product. Are you contending that is 
actually the case now, Mr. Gimble, that the Feith report was an 
intelligence product?
    Mr. Gimble. Yes, sir, I am contending that.
    Senator Chambliss. Well now, I thought you told us that he 
did not gather any intelligence.
    Mr. Gimble. But he analyzed--he did not gather 
intelligence, but it was analyzed and disseminated, and when 
you do the production that results is an intelligence product.
    Senator Chambliss. That is what you would consider an 
intelligence product?
    Mr. Gimble. Yes, sir.
    Senator Chambliss. Lastly, the commander and you both 
stated that you utilized the Office of General Counsel to 
participate in the interview process. Now, OIG has independent 
authority. Why would you go to the Office of General Counsel 
for assistance?
    Mr. Gimble. That is our Office of General Counsel.
    Senator Chambliss. I got you, okay.
    That is all I have, Mr. Chairman.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Sessions.
    Senator Sessions. It seems to be implicit in your remarks 
that there is some sort of sanctity given to the CIA 
conclusions and that to criticize those or disagree with those 
is improper. You are not saying that, though, are you?
    Mr. Gimble. No, we are not saying that at all. It is proper 
to criticize. But when you have a vetted intelligence product 
and you have somebody that is doing alternate conclusions or an 
alternate intelligence product, if there are differences, we 
think those should be discussed.
    Senator Sessions. All right. Now, so is it not true that 
after the policy staffers found some of this information, when 
they took it to the CIA, defensive as any agency is--and I have 
been in the Federal Government for many years as United States 
Attorney and prosecutor and worked with them; I know people are 
defensive--they accepted a good deal of what they asked them 
and pointed out to them, did they not?
    Mr. Gimble. There was common agreement on----
    Senator Sessions. They accepted a good deal of what they 
suggested that had not been in their previous reports and 
estimate?
    Mr. Gimble. There were 26 points of discussion and a little 
less than half of them were agreed to.
    Senator Sessions. Okay, so a little bit less than half of 
these 26 they admitted that they could--putting them in would 
give a better report, and they accepted that. Some they did not 
accept. But some of the guys in the Feith shop disagreed on 
that. They thought they should have been accepted, correct?
    Mr. Gimble. What happened, there was a paper put together. 
The analysts went and looked at it, critiqued it, came up with 
26 points that they had either agreement on or disagreement on, 
and those, the best I could tell, did not change any of the 
Feith briefing.
    Senator Sessions. I will just draw my own conclusion. My 
own conclusion is that they raised a number of points, and that 
the CIA admitted a number of those points were valid and 
accepted and it made the report better, and the report would 
not have been made better had it not been for Feith's staff 
digging into the raw documents and finding this information and 
bringing it forward.
    Then I do not see anything unusual that they would not want 
to, when they talked to the CIA about their disagreements, that 
they would not have a slide that says fundamental problems with 
how the Intelligence Community is assessing information. I 
would say it is just a matter of courtesy that you might not do 
that. But I think if you have a concern that CIA is not 
properly assessing information you should take it to the 
National Security Advisor and maybe be a little bit more 
explicit when you make that briefing.
    So you have said they have done nothing illegal. You said 
they acted with authority. You say that this briefing with the 
National Security Advisor, the Assistant, Mr. Hadley, was 
inappropriately done in your opinion because they did not give 
both sides of all these issues, and that is based on 
fundamentally the slides that you had? You do not know the 
exact words these staffers used?
    Mr. Gimble. Exact words in the briefing?
    Senator Sessions. Yes.
    Mr. Gimble. I was not there.
    Senator Sessions. All you had was the slides?
    Mr. Gimble. We have the slides. We have the detail that 
underlies the slides. The issue is----
    Senator Sessions. Wait a minute now. Wait a minute now. So 
but you do not know what they said?
    Mr. Gimble. I was not in the room.
    Senator Sessions. But they say to you that the nature of 
the briefing was not to present a counter-case or a counter-
substantive analysis of these issues, but a fundamental raising 
of concerns about the CIA analysis and pointing out some of the 
errors they thought the CIA had made. Is that not what they 
say?
    Mr. Gimble. They say that, they do.
    Senator Sessions. That is what they say.
    Mr. Gimble. Yes.
    Senator Sessions. Okay. So I do not know--surely the 
National Security Advisor, Mr. Hadley, the Deputy, was aware 
that this by its very nature of the briefing, it was more of a 
critique and objection to some of the things in the CIA 
analysis. [Audience interruption.]
    Chairman Levin. Excuse me. Excuse me. We will not allow any 
additional outbreaks. I would ask that you now leave. I am 
going to have to ask whoever did that to please leave the room 
now.
    Senator Sessions. I would just say, Mr. Chairman, thank 
you. I guess that is the appropriate thing to do. I think there 
is a group of people that think that somehow these staffers 
were part of some cabal to start a war for oil or some such 
thing as that, and that they were not committed to the decency 
of America and trying to make this country better and that they 
cooked up all this stuff.
    I think your report shows that that is absolutely untrue 
and that there were bases for what these issues were raised. 
These issues are often in dispute and difficult to know what 
the real facts are, and we had an open discussion and the 
Secretary of Defense and the Assistant Secretary of Defense 
ordered that they get with CIA and work out the differences and 
discuss them. I am sure the results of that eventually found 
its way to policymakers.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Sessions.
    I think we will go back and forth here now. Senator Webb, 
do you have additional questions?
    Senator Webb. No.
    Chairman Levin. Senator Warner?
    Senator Warner. Let the record reflect my conversation with 
my colleague from Virginia was relating to a State matter, not 
this hearing. We have rescheduled a meeting that we have 
together here today.
    Chairman Levin. The record will so reflect.
    Senator Warner. We keep coming back to this very pivotal 
phrase. You rendered a professional judgment that the conduct 
of certain principals in the administration was inappropriate 
with regard to the compilation, preparation, and ultimate 
delivery of briefings.
    To what extent in your work did you go down into the system 
to try and find out why they did this? Because I still 
visualize a cadre of very patriotic, very loyal members of 
the--I presume most of them professional staff of the DOD, 
detailed officers from the DIA; and that that was the team that 
brought up the information that came to Secretary Feith's 
office.
    Did you probe, did they have knowledge that some of their 
conclusions was not being delivered? If so, what were their 
opinions why their principals were not doing this? In other 
words, to support your conclusion it would seem to me you would 
have wanted to have gone back into the system to find out why 
this occurred.
    Mr. Gimble. Let me just characterize it this way. First 
off, we were not looking at individuals. We were looking at the 
end product, the process. I agree with you, we have no reason 
to doubt the professionalism, dedication of all the employees, 
because we think they are and they do things with good 
intentions. We have no problem with that. That is not an issue 
for us.
    What we have reported is that when the process came up and 
the decision came up, there was a disagreement. There were 
known disagreements on both sides, and when it funneled down 
the presentation to the policymakers, one side of it did not 
appear in these briefings. We are saying in our view that that 
was inappropriate. It should have been balanced, because you 
had a non-intelligence operation that was doing intelligence 
analysis. That is probably okay. We do not have a problem with 
that. We thought, because the Secretary or the Deputy Secretary 
authorized it, that was fine.
    However, you have the professional Intelligence Community, 
and you can say that people disagree with what they do or do 
not do. That is okay too. We are just saying that when you get 
the two fairly different opinions on a number of issues going 
forward to a decisionmaker that we think it is important to 
have a balance on that and to do less than that would be 
considered inappropriate.
    Senator Warner. Mr. Gimble, we understand that and you have 
presented that in your charts. But take for example the 
briefing that was conducted by Mr. Feith's staff. I have to 
assume that those who conducted that briefing were out of this 
cadre of what I call dedicated career professionals. But they 
are equally culpable in the sense that they did not present the 
other side.
    Did you ask why they did not do it? Were they told not to 
do it, or did they draw on their own professional expertise and 
decide not to do it? In other words, the wrong, if it is a 
wrong, alleged by you was performed by human beings. Why did 
they do what they did?
    Mr. Gimble. I believe that what they did----
    Senator Warner. You believe. Do you know? Do you have facts 
to back up?
    Mr. Gimble. If you let me just----
    Senator Warner. You have a very significant assertion here. 
What is the body of fact that gives rise to--I realize 
factually it was not done, but what was the reason it was not 
done?
    Mr. Gimble. The issue for us is that when you have 
intelligence-gathering responsibilities and you are an 
intelligence operation, you have certain guidelines you have to 
follow. The policy shop was directed and authorized by the 
Secretary to do that, and we do not believe they followed the 
prescribed intelligence vetting processes and they had 
information that went up that was not vetted and it was not 
shown to be divergent from the other in these briefing charts.
    We think that is inappropriate. That is my opinion. Was it 
any malintent? I will leave that to the able body up here or 
whoever else investigates it. I am not in a position to make a 
call on somebody's intent of why they did something. We were 
not looking--the question has been why did we not swear people 
in. This was not an investigation of people. This was an 
investigation of process--or a review of process, not even an 
investigation of anything.
    Senator Warner. All right. Some of Feith's staff gave one 
of these three critical briefings; is that correct?
    Mr. Gimble. They did.
    Senator Warner. Did your debriefers or interrogators ask 
them why they deleted certain material?
    Mr. Gimble. You are talking about the changes between 
briefing to briefing? There are two issues here. The briefing 
got changed three times. For each of the three, there were 
differences in that. Okay, that is one issue.
    The underlying issue that I am more concerned with is there 
was an amount of disagreement on the basic fact of the 
presentation, and that is what we think should have been 
presented in all three versions, and it simply was not done.
    Senator Warner. All right, you have your opinion it should 
have been. Did you inquire as to why it was not done from the 
individuals that did not do it?
    Mr. Gimble. We asked Secretary Feith, as an example, why 
that chart did not appear in the briefing to Mr. Tenet.
    Senator Warner. Yes, and we have before us his letter, 
whatever.
    But I am going back to these professional staff people. 
Apparently they did one of the briefings. The chart was not 
included. My question, did you ask any of these individuals, 
not you because you decided not to interview, but your staff. 
Did they ask the individuals why did they delete this?
    Mr. Gimble. They did not ask that. First, it was not just 
deleted. The underlying issue of the 26 points was never in the 
presentation to be deleted to start with.
    Senator Warner. I think at this point we just best go to 
the classified session and see what we can gain.
    Chairman Levin. Thank you, Senator Warner.
    Senator Webb.
    Senator Webb. Just one final comment. Mr. Gimble, I 
understand the motivation of your report and I think it is 
important for us to reinforce that, that you were asked to 
present certain conclusions without getting into political 
motivation. I certainly have my political views about why this 
was done and I was stating them at the time, that there was a 
group of people who wanted very much for this country to get 
involved in a unilateral war against a country that was 
troublesome but was not directly threatening us. That became 
clear very early on after September 11.
    That is not the issue that is before us. That is not the 
issue that was in the report that you were asked to be giving 
us. In terms of staffs in the Pentagon, Senator Warner and I 
both have long experience in the Pentagon. I had 5 years in the 
Pentagon, as I mentioned earlier, 1 year actually on Senator 
Warner's staff when he was Under Secretary and then Secretary 
of the Navy. It is important to say that, first of all, these 
staffs are comprised of a mix of people in terms of their 
backgrounds. Some of them are political appointees, some of 
them are career, some of them are military, as we know.
    But very often the makeup of a staff is reflected by the 
motivations and the character of the leadership on the staff. 
They selected people. Even in terms of people who are career, 
they interview, they select, and the staff over a period of 
time comes to reflect the views of the leadership. I would not 
be surprised if that were the case in this staff.
    But the most important thing that you have done here is to 
provide opinions that are devoid of political judgment, and I 
think that is why your report to this extent is so valuable. If 
we want more information, if the chairman wants more 
information, if Senator Warner and others want more 
information--I certainly would like more information on this 
because I would like to see some accountability.
    But to the extent that you have been able to compile 
information, I find it to be credible.
    Mr. Gimble. Thank you.
    Chairman Levin. We will put in the record the request, if 
it is not already in the record, of Chairman Roberts of 
September 9 asking you or your predecessor to know whether to 
ascertain whether the personnel assigned to OSP, which was part 
of the Feith operation, at any time conducted inappropriate 
intelligence activities. Your finding is clear that they did.
    [The information referred to follows:]
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Chairman Levin. As to why they did not do what the process 
required them to do in making an intelligence assessment is 
something that we will find out, either with the SSCI or on our 
own. If they are looking into that aspect of it, we are not 
going to duplicate that aspect of it. But why these 
inappropriate activities were undertaken is an important 
question. It was not the question that you looked at because 
that gets into motive. You focused on whether or not the 
activities were inappropriate. You reached your conclusion. I 
think the evidence is overwhelming that your conclusion is 
correct.
    We will now do the following. Any of us who have questions 
of you will put those questions in writing that can be answered 
in the open record. We are now going to go to a closed session. 
But we will have a period of 24 hours, let us say 48 hours, to 
put together questions for you for the open record.
    In addition, we will be talking to witnesses who presented 
that slide presentation to the Vice President's office and to 
the National Security Council. So if you would supply us with 
the names of the people from the Feith office that did make 
this presentation, we will be interviewing those folks. We will 
also seek interviews with Mr. Hadley and Mr. Libby, and see 
whether or not they will be willing to meet with us.
    [The information referred to follows:]

    The list of individuals who presented the briefing, ``Assessing the 
Relationship between Iraq and al Qaeda,'' follows:

          Mr. Christopher Carney (OUSD(P))
          Ms. Christina Shelton (OUSD(P))
          Mr. Jim Thomas (Special Assistant to the Secretary of 
        Defense)

    Chairman Levin. You said that Mr. Hadley declined to meet 
with you?
    Mr. Gimble. The counsel over there declined to make him 
available.
    Chairman Levin. Did you seek to talk to Mr. Libby as well?
    Mr. Gimble. No, sir, we did not.
    Chairman Levin. We will make--since the presentation was to 
his staff, we will try to either talk to him or to his staff. I 
believe he was, though, at the presentation if I am not--is 
that correct, Mr. Libby was there?
    Mr. Gimble. He was at the presentation.
    Chairman Levin. So we will seek to talk to them both, Mr. 
Hadley and Mr. Libby, and we would appreciate your letting us 
know who it was on behalf of the Feith office that made this 
presentation.
    We are now going to move to the classified portion. It will 
not take long. I think you have an obligation to be at a 
different presentation. At what time is that?
    Mr. Gimble. After this hearing.
    Chairman Levin. After this hearing.
    We will now move. We thank you all for your presence. We 
will move to room 236. We are adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
                        lack of a recommendation
    1. Senator Levin. Mr. Gimble, your report doesn't make any 
recommendations as to remedial action that should to be taken. Your 
report states that the circumstances prevalent in 2002 are no longer 
present today and that ``the continuing collaboration between the Under 
Secretary of Defense for Intelligence (USD(I)) and the Office of the 
Director of National Intelligence will significantly reduce the 
opportunity for the inappropriate conduct of intelligence activities 
outside of intelligence channels.''
    However, the present Under Secretary of Defense for Policy has 
submitted 50 pages of comments that disagree with virtually every 
aspect of your draft report and, in particular, that the Feith office 
was engaged in intelligence activities.
    Since the present Under Secretary of Defense for Policy doesn't 
believe that what was done in the Feith shop was inappropriate, why 
should we believe that such intelligence activities won't be repeated?
    Mr. Gimble. As stated in our report, the creation of the USD(I) and 
the aggressive efforts of the Director of National Intelligence's 
National Intelligence Council and analytic integrity and standards have 
contributed to a more favorable operational environment. It should also 
be noted that the Office of Special Plans (OSP) and the Policy 
Counterterrorism Evaluation Group are no longer a part of the Office of 
the Under Secretary of Defense for Policy (OUSD(P)) and elements of the 
OUSD(P) moved to the USD(I) with its establishment.
    We did not include any recommendations for remedial action because 
the conditions that exist today are different from the circumstances 
which existed during the months leading up to the invasion of Iraq. Our 
conclusion that the environment within the DOD and the Intelligence 
Community (IC) has changed is supported by the statements made by 
Robert Gates (Secretary of Defense) and Michael McConnell (Director of 
National Intelligence) during their confirmation hearings held in 
December 2006 and February 2007, respectively.
    Mr. Gates stated: ``The one thing I don't like is offline 
intelligence organizations, or analytical groups. I would far rather 
depend on the professional analysts at Defense Intelligence Agency 
(DIA) and at Central Intelligence Agency (CIA) and at the other 
agencies, and work to ensure their independence than to try and create 
some alternative some place. And so I think that relying on those 
professionals, and making it clear, from my position, if I'm confirmed, 
that I expect then to call the shots as they see them and not try and 
shape their answers to meet a policy need.''
    Mr. McConnell, when asked what he would do if he became aware that 
intelligence was being used inappropriately, stated, ``If I was aware 
that anyone was using information inappropriately, then I would make 
that known to whoever was using the information inappropriately.'' He 
further stated, ``I would tell all those responsible for this process 
what the situation was. In the role of this committee (Senate Select 
Committee on Intelligence ((SSCI)) for oversight, you would be a part 
of that process to be informed.''

                     alternative analysis briefing
    2. Senator Levin. Mr. Gimble, the OUSD(P) alternative analysis 
briefing ``Assessing the Relationship Between Iraq and al Qaida'' was 
given to the Secretary of Defense, the Director of Central 
Intelligence, and to the staffs of the Office of the Vice President and 
the National Security Council.
    Did you ask, and do you know, if that briefing was given to any 
other entities or foreign governments? If so, to whom?
    Mr. Gimble. We did not ask, nor are we aware of any foreign 
governments or any other entities being briefed this presentation.

                   czech view of alleged atta meeting
    3. Senator Levin. Mr. Gimble, during the briefing there was a 
discussion of when the Czech Government first came to doubt that the 
alleged Atta meeting with the Iraqi intelligence officer, al Ani, took 
place in Prague in April 2001.
    Can you review your records and tell us when the Czech Government 
first doubted that the meeting took place, and when they first 
concluded that it had not taken place?
    Mr. Gimble. In the winter of 2001 Czech officials began to retract 
some of their statements concerning the Atta/al-Ani meeting. We do not 
have documents showing when they first concluded that it had not taken 
place.

      release of originator controlled material without clearance
    4. Senator Levin. Mr. Gimble, is it required that approval must be 
granted for a non-originating agency to release originator controlled 
(ORCON) material before releasing it?
    Mr. Gimble. Yes. Executive Order Number 12958, ``Classified 
National Security Information,'' dated March 2003 states:

          ``An agency shall not disclose information originally 
        classified by another agency without its authorization.''

    The Controlled Access Program Office (CAPCO) describes ORCON in the 
IC Classification and Control Markings Implementation Manual as:

          ``Information bearing this marking may be disseminated within 
        the headquarters and specified subordinate elements of the 
        recipient organizations, including their contractors within 
        government facilities. This information may also be 
        incorporated in whole or in part into other briefings or 
        products, provided the briefing or product is presented or 
        distributed only to original recipients of the information. 
        Dissemination beyond headquarters and specified subordinate 
        elements or to agencies other than the original recipients 
        requires advanced permission from the originator.''

    5. Senator Levin. Mr. Gimble, did Under Secretary Feith have that 
approval from the CIA before he released the ORCON material to the SSCI 
in late October 2003?
    Mr. Gimble. No. However, Under Secretary Feith believed that the 
CIA had approved the ORCON material before sending it to the SSCI in 
October 2003. In Under Secretary Feith's statement to the DOD Inspector 
General's (IG) office he stated that he requested permission from the 
CIA to release the ORCON material, but lacking a timely response, he 
believed that the CIA had granted permission to release the material. 
During our review we found no documentation of the ORCON request to CIA 
from Under Secretary Feith, however, on November 15, 2003, a Department 
of Defense (DOD) news release stated, ``the provision of the classified 
annex to the Intelligence Committee was cleared by other agencies and 
done with the permission of the Intelligence Community.'' This press 
release was sanctioned by the CIA's then Deputy Director Central 
Intelligence (DDCI), thus signaling CIA's approval of the information's 
release.

    6. Senator Levin. Mr. Gimble, your report says that the Feith 
office requested approval to release the documents. Did your staff 
review the actual letter of request from the Feith office to the CIA?
    Mr. Gimble. No, we have no such documentation from Under Secretary 
Feith to the CIA. However, the July 2006, ``Memorandum for the 
Inspector General, DOD on behalf of The Honorable Douglas J. Feith,'' 
stated that his staff gave the summary to the CIA for approval on 
October 24, 2003. We have no evidence proving otherwise. Eventually the 
DDCI approved the release via a joint DOD press release in November 
2003.

    7. Senator Levin. Mr. Gimble, your report says that the Feith 
office ``believed'' it had approval from the CIA before sending the 
material to the SSCI. Who told you that the Feith office believed they 
had the CIA approval, and what was the basis provided for that belief?
    Mr. Gimble. In the July 2006, ``Memorandum for the Inspector 
General, DOD on behalf of The Honorable Douglas J. Feith'' and his July 
2006 interview with my staff, Under Secretary Feith declared his belief 
that his office had obtained CIA approval for the release of ORCON 
materials.

    8. Senator Levin. Mr. Gimble, do you believe it is appropriate, if 
an office does not receive a response providing ORCON release approval, 
for it to assume that it has been given such approval?
    Mr. Gimble. Executive Order Number 12958, ``Classified National 
Security Information,'' dated March 2003 states:

          ``An agency shall not disclose information originally 
        classified by another agency without its authorization.''
    The CAPCO describes ORCON in the IC Classification and Control 
Markings Implementation Manual as:

          Information bearing this marking may be disseminated within 
        the headquarters and specified subordinate elements of the 
        recipient organizations, including their contractors within 
        government facilities. This information may also be 
        incorporated in whole or in part into other briefings or 
        products, provided the briefing or product is presented or 
        distributed only to original recipients of the information. 
        Dissemination beyond headquarters and specified subordinate 
        elements or to agencies other than the original recipients 
        requires advanced permission from the originator.''

    This guidance clearly states approval for release of classified 
information must be cleared through the originating agency and we 
believe it is appropriate to wait for specific approval prior to 
release of classified information.

    9. Senator Levin. Mr. Gimble, your report says: ``The OUSD(P) 
requested permission from the CIA to release the ORCON material, but 
lacking a timely response, the OUSD(P) believed that the CIA had 
granted permission to release the material.'' If the Feith office 
believed they had approval to release the original submission to the 
SSCI on October 27, 2003, why did they seek approval before sending the 
revised annex to the Senate Armed Services Committee in January 2004?
    Mr. Gimble. The July 2006. ``Memorandum for the Inspector General, 
DOD on behalf of The Honorable Douglas J. Feith'' states ``because the 
original ORCON release request applied only to the SSCI, the OUSD(P) 
requested CIA ORCON release authority for the other committees.''

    revised submission of originator controlled material to congress
    10. Senator Levin. Mr. Gimble, in relation to the January 2004 
revised ORCON material that Under Secretary Feith sent to the Senate 
Armed Services Committee and other congressional committees, did your 
staff compare the specific changes requested by the CIA with:

         the actual changes that were made by Under Secretary Feith to 
        the document; and
         the changes that were represented by Under Secretary Feith to 
        have been requested by the CIA?

    Mr. Gimble. Yes, my staff examined the original OUSD(P) document 
and the amended document with the changes. We also noted that in a 
memorandum dated November 1, 2004, the CIA Director of Congressional 
Affairs stated ``after a careful comparison between that submission and 
what we had requested as our condition for clearance of CIA material, I 
believe that you made all of the changes we requested.''

                     feith briefing on atta meeting
    11. Senator Levin. Mr. Gimble, one of the questions I asked you to 
investigate was whether the Feith office prepared briefing charts on 
the Iraq-al Qaeda relationship that went beyond the available 
intelligence by asserting that an alleged meeting between September 11 
lead hijacker Mohammed Atta and an Iraqi intelligence agent in Prague 
in April 2001 was a ``known contact.'' Your report confirms that the 
briefing presented the alleged meeting as a fact.
    Was this alleged meeting--which the IC doubted took place--a key 
underpinning of the Feith office conclusion that Iraq and al Qaeda had 
a cooperative relationship?
    Mr. Gimble. The alleged meeting between Mohammed Atta and al-Ani 
was indeed a ``key underpinning of the Feith office conclusion,'' 
however it was one of many. OUSD(P) also believed that there was a 
``mature symbiotic relationship'' in other areas such as the pursuit of 
weapons of mass destruction, training, and Iraq providing a safe haven 
for al Qaeda.

    12. Senator Levin. Mr. Gimble, did you find that both the CIA and 
DIA had published reports in the summer of 2002, prior to the Feith 
office briefing to the White House containing this assertion, that 
questioned the single Czech report alleging the meeting?
    Mr. Gimble. Yes. In June 2002 the CIA published a report that 
downplayed the alleged meeting between Mohammed Atta and an Iraqi 
intelligence agent. In July 2002 the DIA Joint Intelligence Task Force-
Combating Terrorism published special analysis that pointed to 
significant information gaps in regards to the alleged meeting. I have 
included additional classified information in response to this 
question.
Czech Message Summary
    The following is a classified summary of the CIA message traffic we 
reviewed for our report. [Deleted.]

             comparison of oral briefing to briefing slides
    13. Senator Levin. Mr. Gimble, in its comments on your draft 
report, did the current OUSD(P) assert that the slides accompanying the 
presentation ``Assessing the Relationship Between Iraq and al Qaeda'' 
made in 2002 by members of Under Secretary Feith's Office to the 
Secretary of Defense, the Director of Central Intelligence, to the 
Deputy National Security Advisor, and the Vice President's Chief of 
Staff were, in any way, not reflective of the oral briefing that 
accompanied them?
    Mr. Gimble. In our review of the current Under Secretary of Defense 
for Policy's comments on our report we did not find any statement that 
quoted him as saying the brief made in 2002 was not reflective of the 
oral briefing that accompanied the slides.

    14. Senator Levin. Mr. Gimble, did Mr. Feith, or any of those 
people who worked on the presentation, assert that the slides were, in 
any way, not reflective of the oral briefing that accompanied them?
    Mr. Gimble. During our review, my staff did not discover any 
evidence that what appeared in OUSD(P) slides (overhead and hardcopy) 
differed from what was briefed orally. Our interviews with OUSD(P) 
briefers did not reveal that opposing views (the IC's) were 
articulated.

                          any denied documents
    15. Senator Levin. Mr. Gimble, were there any documents or 
information you requested which you were denied? If so, what was denied 
to you, and for what reason or reasons?
    Mr. Gimble. No. All documents requested were received.

            unclassified and declassified versions of report
    16. Senator Levin. Mr. Gimble, a significant portion of your 
classified report is actually unclassified text. Your unclassified 
briefing material was drawn heavily from the report, which is otherwise 
classified. Please provide an unclassified version of the report to the 
committee immediately. Then, please review the rest of the report for 
declassification to see if classified portions can be declassified and 
made public. Please provide a declassified version of the report after 
the declassification review.
    Mr. Gimble. We are in the process of preparing a declassified 
version. On February 22, 2007, we sent letters to the DIA and CIA 
requesting declassification assistance. Upon completion, the 
declassified version of the report will be provided to the committee. 
[See ANNEX A]

                            document storage
    17. Senator Levin. Mr. Gimble, our staff has heard--not from your 
office--that Mr. Feith was storing Pentagon documents that were 
relevant to your review at places other than the Pentagon, such as the 
National War College at Fort McNair.

         Is that true? If so, what was Mr. Feith's rationale for doing 
        so?;
         If so, were all applicable rules and procedures followed in 
        the movement of those documents, and have all documents been 
        accounted for?; and
         If so, do you know whether that removal hindered your inquiry 
        in any way?

    Mr. Gimble. Yes, it is true that Mr. Feith stored documents on a 
computer hard drive and computer external drive at the National Defense 
University (NDU). Mr. Feith stored these documents for archival 
purposes. Mr. Feith is in the process of writing a book on his 
experiences. All applicable rules and procedures were not followed 
because the staff at NDU informed DOD IG that storage of the computer 
at NDU was done without permission of the Office of the Secretary of 
Defense (OSD) Records Management Office. The OSD Records Management 
Office subsequently removed the computer from NDU. However, this 
removal did not hinder DOD IG in any way because the computer hard 
drives were imaged by the Defense Criminal Investigative Service prior 
to the removal.

                          information requests
    18. Senator Levin. Mr. Gimble, please provide copies of the 
following to the committee:

         A list of all individuals interviewed for your inquiry;
         A list of all individuals you sought to interview, but were 
        denied an interview;
         All documents requested by the committee or promised by the 
        DOD IG at the briefing, including, but not limited to, the 
        following:

                 the August 9, 2002 DIA JTIF-CT document(s) and 
                subject OUSD(P) document(s) reviewed by JTIF-CT;
                 the July 25, 2002 OUSD(P) memo related to the OUSD(P) 
                briefings; and
                 documents from the period around August 20, 2002, 
                indicating the 26 points of disagreement between the 
                OUSD(P) alternative analysis and the IC, and the views 
                of the IC on those 26 points.

    Mr. Gimble. Documents requested by the committee or promised by the 
DOD IG at the briefing have been provided as inserts to the record. I 
have also included in response to this question a copy of the July 12, 
2006, ``Memorandum for the Inspector General, DOD on behalf on The 
Honorable Douglas J. Feith, Former Under Secretary of Defense for 
Policy.'' [See ANNEX B]
    The August 9, 2002 DIA JTIF-CT document(s) and subject OUSD(P) 
document(s) reviewed by JTIF-CT; the July 25, 2002, OUSD(P) memo 
related to the OUSD(P) briefings are both ORCON CIA and DIA, on 
February 21, 2007, we requested declassification reviews from both and 
subsequently on March 9, 2007, we initiated a request to release these 
two documents to the Senate Armed Services Committee. These 2 documents 
also address the issue of the 26 points of disagreement between the 
OUSD(P) alternative analysis and the IC, and the views of the IC on 
those 26 points.
    I have provided, as an insert for the record, a version that has 
been redacted to protect privacy under the Privacy Act of 1974, 5 
U.S.C. 552a as amended. An unredacted list has been provided to the 
committee.
    The attached list contains the names of 72 individuals interviewed, 
4 individuals declining to be interviewed, and 2 additional names of 
importance.
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
              contacts with foreign intelligence agencies
    19. Senator Reed. Mr. Gimble, did the OSP have contacts and talk 
with intelligence agencies of other countries? If so, which ones?
    Mr. Gimble. No. Our review was of pre-Iraqi war intelligence 
activities of the OUSD(P). We focused on analysis, production, and 
dissemination of intelligence with regards to the Iraq-al Qaeda 
connection. Nothing during the course of our review indicated that 
collection of intelligence was occurring particularly with intelligence 
agencies of other countries. Existing intelligence products and raw 
intelligence were used by the OUSD(P).

                             ahmed chalabi
    20. Senator Reed. Mr. Gimble, did your staff look into activities 
of the OUSD(P) related to Ahmed Chalabi? If so, what did you find?
    Mr. Gimble. We were tasked to review the pre-Iraqi war activities 
of the OUSD(P). We did not review or evaluate any activities concerning 
Ahmed Chalabi as part of this effort. The Iraqi National Congress (INC) 
review, another ongoing DOD OIG intelligence review, looked at 
relationships of DOD personnel with the INC, not exclusively Ahmed 
Chalabi. Chalabi was the leader of the INC, but he was not the INC or 
the only person DOD dealt with. A classified report is planned for 
issuance in April 2007. The final report will be provided to the Senate 
Armed Services Committee upon completion.

                                ANNEX A

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                ------                                


                                ANNEX B

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [Whereupon, at 12:04 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
